<html>
<title> - ASSESSING THE RESILIENCY OF THE NATION'S SUPPLY CHAIN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
         ASSESSING THE RESILIENCY OF THE NATION'S SUPPLY CHAIN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON BORDER, MARITIME,
                      AND GLOBAL COUNTERTERRORISM

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 7, 2008

                               __________

                           Serial No. 110-111

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                     U.S. GOVERNMENT PRINTING OFFICE
42-925 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012008


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

     SUBCOMMITTEE ON BORDER, MARITIME, AND GLOBAL COUNTERTERRORISM

                LORETTA SANCHEZ, California, Chairwoman

Jane Harman, California              Mark E. Souder, Indiana
Zoe Lofgren, California              David G. Reichert, Washington
Sheila Jackson Lee, Texas            Michael T. McCaul, Texas
James R. Langevin, Rhode Island      Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Mike Rogers, Alabama
Al Green, Texas                      Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                         Alison Rosso, Director

                         Denise Krepp, Counsel

                       Carla Zamudio-Dolan, Clerk

        Mandy Bowers, Minority Senior Professional Staff Member

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Border, Maritime, and Global Counterterrorism..................     1
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana, and Ranking Member, Subcommittee on 
  Border, Maritime, and Global Counterterrorism:
  Oral Statement.................................................     2
  Prepared Statement.............................................     3

                               Witnesses

Mr. Todd Owen, Executive Director, Cargo and Conveyance Security 
  Office, Office of Field Operations, U.S. Customs and Border 
  Protection, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Rear Admiral James Watson, Director, Prevention Policy for Marine 
  Safety, Security and Stewardship, U.S. Coast Guard, Department 
  of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Robert W. Kelly, Senior Advisor, The Reform Institute:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
Mr. Paul Zimmermann, Director of Operations, Board of 
  Commissioners, The Port of New Orleans:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21

                             For the Record

The American Association of Port Authorities.....................     5

                                Appendix

Questions From Honorable Loretta Sanchez.........................    39


         ASSESSING THE RESILIENCY OF THE NATION'S SUPPLY CHAIN

                              ----------                              


                         Wednesday, May 7, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border, Maritime, and Global 
                                          Counterterrorism,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:19 p.m., in 
Room 311, Cannon House Office Building, Hon. Loretta Sanchez 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Sanchez, Cuellar, and Souder.
    Ms. Sanchez. The Subcommittee on Border, Maritime and 
Global Counterterrorism will come to order. The committee is 
meeting today to receive testimony on ``Assessing the 
Resiliency of the Nation's Supply Chain.''
    I want to thank our witnesses for staying the extra hour 
and 15 minutes and beyond. Just even to begin this, I am so 
sorry the other side is playing games, and we are having a good 
time running back and forth for votes. So I am told that we 
have about an hour if no procedural votes come up. So we will 
at least get your testimony in and begin to answer questions, 
and I think that that will be good.
    So thank you again for being before us. I am looking 
forward to receiving your testimony and, of course, to asking 
you questions. Today we will be discussing the vulnerabilities 
of our Nation's supply chain, the consequences that could be 
caused by an incident affecting that supply chain, and how we 
can prepare to effectively and efficiently restore the supply 
chain after any type of incident.
    Ensuring that we have a comprehensive plan that would 
assist in recovering and restoring the supply chain after any 
attack or disruption is a primary concern to many of us on this 
subcommittee. A disruption would bring a halt to goods flows. 
We would have to find new ways to move goods in our country. Of 
course, it could have an incredible impact on our economy.
    I remember back in 2002, I think it was in the summer, 
living in southern California, seeing the 10-day shutdown of 
the ports up there in LA/Long Beach and seeing just transport 
ships all the way down to San Diego waiting to try to unload. 
Of course, it cost us between $1 billion and $2 billion a day. 
Then to restart, once we opened up the port again, took us, I 
think somebody told me, almost 6 months to get back on schedule 
as we needed to.
    So that is a lot of economic consequences, not only to 
someplace like southern California, but that reached all the 
way into so many other places, like car manufacturing in 
Alabama where they have just-in-time and receive pieces they 
need there.
    So we need to prepare for that. We want to be prepared to 
minimize the potential negative effects. I am aware that the 
Department has compiled numerous documents on broad initiatives 
and goals, but I am concerned that the level of detail 
necessary to establish inherent resiliency has been overlooked. 
In order to be successful, recovery plans must be fully fleshed 
out, communicated to all stakeholders, practiced frequently, 
and funded.
    The resiliency effort must be open to input and to feedback 
from the private sector, because, of course, as we learned 
then, they really are the ones who are moving so much of those 
goods, and they need to be in the loop. In addition, 
communication with the private sector. We also encourage the 
Department to continue communicating regularly with this 
subcommittee and with the full committee.
    We are very interested in receiving the overdue report 
evaluating the capabilities of the SAFE Port Act pilot project 
that tested the large-scale radiation scanning of U.S.-bound 
containers. Any indication of when we would receive that report 
would be greatly appreciated.
    Again, I thank the witnesses.
    I yield to my ranking member from Indiana, Mr. Souder, for 
his opening statement.
    Mr. Souder. Thank you, Madam Chair.
    The ability of our Nation's supply chain to quickly recover 
from a terrorist attack or a natural disaster is critical to 
both the national security and economic security of the United 
States.
    I have the largest manufacturing district in the country, 
both percent and actual numbers of manufacturing workers. 
Wherever we aren't making something, we are growing in between, 
food stuff.
    In Fort Wayne, for example, we make everything from 
vehicles to orthopedic devices in Warsaw to military contract 
things from SonaVoice to all of the aircraft control devices 
from BAE for every single military aircraft.
    After September 11, 2001, commercial trucks were severely 
delayed; that is the GM pick-up plant, which is the largest in 
the United States, is the bridge between Windsor and Detroit 
due to security concerns. There is about a hundred crossings 
per pick-up. This led to a loss of revenue and potentially 
would have lost the jobs in my district if we don't keep these 
things flowing.
    We have time now to work out some of these issues to reduce 
delays and facilitate rerouting of trade in the event of an 
attack or disaster. For example, in Tacoma, Washington, is the 
main rail connection to the entire Midwest, and that port has 
incredible complications in trying to figure out how we are 
going to manage and do the security of those trains. There are 
multiple points you could cut it there or anywhere before it 
spreads that are critical to infrastructure.
    Los Angeles/Long Beach is the biggest trucking center for 
all these parts that are coming to the Midwest to keep all of 
our plants going, and that could be done. At one point, in New 
Orleans, the largest grain elevator in my district, 100 percent 
of the soybeans were going to a harbor in New Orleans to ship 
to Asia. That shifted a little bit now because it goes 
depending on the trading, but the whole Mississippi River 
valley funnels into New Orleans. You can do multiple different 
types of choke points, whether it is rail or whether it is 
truck or whether it is on the water, inland, that are critical 
to keeping the industrial structure moving in the United 
States.
    To this end, there are three key issues. No. 1 is what 
communication protocols exist between DHS and the private 
sector in the event of an incident? No. 2, how do training and 
exercise programs cover resumption-of-trade issues, and how is 
the private sector involved in that? No. 3, what are the roles 
and responsibilities for making decisions involving resumption 
of trade in DHS and with other levels of government?
    Madam Chair, I would like to thank you for holding this 
hearing. I believe this is a really important issue. This week, 
DHS is operating a Government-wide exercise to test crisis 
response capabilities and continuity of operations.
    I would like to call to everyone's attention an article 
from The Washington Post this morning which provides some 
details on the exercise, including that it involves terrorists 
sabotaging a tanker vessel on the West Coast. The Coast Guard 
and CBP are clearly involved in the planning and preparations 
for this exercise, and I hope that it will include a 
resumption-of-trade aspect.
    I ask unanimous consent that the article from The 
Washington Post be inserted into the hearing record.
    I appreciate the willingness of Mr. Owen and Admiral Watson 
to come here today. It is unfortunate that we couldn't delay 
this hearing 1 day or possibly till next week to allow for 
these individuals to take part in this exercise and then 
include the lessons learned, especially as they relate to 
supply-chain resiliency, in the testimony before the committee.
    Again, I thank the witnesses for being here, your patience 
with our floor procedures.
    I yield back the rest of my time and ask for my full 
statement and the article to be inserted in the record.
    Ms. Sanchez. The gentleman has asked for his full statement 
and the article to be inserted.
    [The statement of Hon. Souders and the information follow:]

               Prepared Statement of the Hon. Mark Souder
                              May 7, 2008

    Thank you Madam Chair. The ability of the Nation's supply chain to 
quickly recover from a terrorist attack or natural disaster is critical 
to both the national security and economic security of the United 
States.
    I have the largest manufacturing district in the country. In Fort 
Wayne, for example, we make everything from vehicles to orthopedic 
devices to military supplies. After September 11, 2001, commercial 
trucks were severely delayed at the bridge between Windsor and Detroit 
due to security concerns; this led to a loss of revenue and jobs at the 
plants in my district. We have time now to work out some of these 
issues to reduce delays and facilitate rerouting of trade in the event 
of an attack or disaster.
    A great deal has been done since then to enhance security in our 
ports and throughout the supply chain. There is no doubt that there is 
more to be done on the prevention side to implement and enhance on-
going initiatives, as well as a continual vigilance to ensure that the 
security measures we have in place are addressing current threats and 
trends.
    One area where more work is clearly needed is on resiliency and 
resumption of trade. While considering the SAFE Port Act of 2006, 
Congress recognized that more needed to be done on resiliency planning 
and included several legislative mandates:
  <bullet> Requiring Federal Maritime Security Coordinators to identify 
        salvage equipment capable of restoring trade capacity and 
        clearing waterways as quickly as possible after an incident;
  <bullet> Requiring the Coast Guard to establish interagency 
        operational centers to improve communication and coordination 
        within ports; and
  <bullet> Requiring DHS to develop a system to collect and share risk 
        information with the private sector related to the security of 
        the supply chain.
    Two other sections required strategic plans for securing the supply 
chain and protocols for resuming trade. Both of these were submitted on 
July 13, 2007. I would like to express appreciation for the timeliness 
of the delivery to Congress; I know that a lot of man hours went into 
these documents.
    I am looking forward to receiving an update on the implementation 
of those specific sections of law. In addition, there are three key 
issues that I hope to discuss in today's hearing:
    1. What communication protocols exist between DHS and the private 
        sector in the event of an incident?
    2. How do training and exercises programs cover resumption of trade 
        issues and how is the private sector involved?
    3. What are the roles and responsibilities for making decisions 
        involving resumption of trade within DHS and with other levels 
        of government?
    Madam Chair, I would like to thank you for holding this hearing; I 
believe that this is a really important issue. This week, DHS is 
operating a governmentwide exercise to test crisis-response 
capabilities and continuity of operations.
    I would like to call to everyone's attention an article from the 
Washington Post this morning which provides some details on the 
exercise--including that it involves terrorists sabotaging a tanker 
vessel on the west coast. The Coast Guard and CBP are clearly involved 
in the planning and preparations for this exercise and I hope that it 
will include a resumption of trade aspect. I ask unanimous consent that 
the article from the Washington Post be inserted in the hearing record.
    I appreciate the willingness of Mr. Owens and Admiral Watson to 
come here today. It is unfortunate that we couldn't delay this hearing 
1 day or possibly until next week to allow for these individuals to 
take part in the exercise and then include the lessons learned, 
especially as they relate to supply chain resiliency in their testimony 
before the committee.
    Again, I thank the witnesses for being here and I yield back my 
time.

         Appendix 1.--U.S. Tests Response To Set of Calamities

 EXECUTIVE BRANCH ``RUNS'' GOVERNMENT FROM OUTSIDE D.C. AS MOCK CRISES 
                                 MOUNT

By Mary Beth Sheridan, Washington Post Staff Writer, Wednesday, May 7, 
        2008
    Thousands of key Federal employees are being whisked from the 
Washington area by helicopter and car for a 3-day test of their ability 
to run the government from remote locations during a disaster.
    The exodus, which began yesterday and will continue today, involves 
the White House and other parts of the executive branch. Congress and 
the judiciary are not part of the exercise, which is being overseen by 
the Department of Homeland Security.
    Since the late 1990's, every Federal agency has been required to 
have a plan to quickly resume operations after a catastrophe. But the 
response to the Sept. 11, 2001 terrorist attacks raised doubts about 
many agencies' preparations.
    This week's ``continuity of government'' drill is one of the 
largest by the Federal Government since 9/11, officials said. It is 
part of a national 8-day exercise in which officials are responding to 
a cascade of nightmarish events. The drill started Thursday, with 
terrorists sabotaging a tanker carrying poisonous gas in Washington 
State.
    Next, suspected nerve gas was accidentally released from a 
government stockpile in Oregon. The disaster script also calls for a 
devastating Category 4 hurricane to roar up the East Coast toward the 
District, where officials will be getting word of a terrorist threat to 
the capital.
    Officials leaving the Washington area will work from temporary 
offices in Virginia, West Virginia and Maryland for periods ranging 
from a few hours to 2 days. Others will work from home.
    Russ Knocke, a Homeland Security spokesman, said thousands of 
employees will take part in the exercise. Plans call for a mandatory 
evacuation of the Washington region before ``Hurricane Zoe'' strikes at 
1 a.m. Thursday.
    Knocke would not say which senior officials are participating. 
President Bush will not be working from a remote location, but other 
White House officials will, said Scott Stanzel, deputy White House 
press secretary.
    ``I'm not going to be able to detail who those officials are,'' he 
said.
    The roles of Cabinet secretaries in remote locations will be played 
by their underlings in some cases.
    The out-of-town sites used in the exercise will include Mount 
Weather, a cold war-era bunker on the border of Loudoun and Clarke 
counties that has been used in recent years as an operations center by 
the Federal Emergency Management Agency, officials said.
    Critics have derided FEMA in recent years for including functions 
such as patent processing as an ``essential'' service to be restored 
after a catastrophe.
    But Paul C. Light, a professor of government at New York 
University's Wagner Graduate School of Public Service, applauded 
officials for organizing the drill.
    ``At least they're doing exercises,'' he said. ``It's not enough to 
design plans; you have to practice.''
    FEMA is running the hurricane part of the exercise. Washington, 
Maryland and Virginia officials ``are involved but not playing full-
scale,'' said Chris Geldart, who heads Homeland Security's office for 
the National Capital Region.
    Most residents won't notice anything unusual during the hurricane 
exercise, because much of it is ``tabletop''--involving discussions of 
plans rather than deployments of first responders. But hotels a few 
hours outside Washington may be unusually full of visitors who are 
clearly not tourists.

    Ms. Sanchez. Do we have anything else to be inserted at 
this point into the record?
    I will ask that the memo that was sent to us from the AAPA 
be inserted. Without objection, it is so.
    [The information follows:]

                American Association of Port Authorities

                         SUPPLY CHAIN SECURITY

A Call for Minimum Standards
     While the Department of Homeland Security has attempted to address 
supply chain security under the various programs that have been 
promulgated by Customs and Border Protection, the reality is that no 
internationally agreed upon minimum supply chain security standards 
have been published. Without this global baseline, and a method of 
either enforcement or rewards, supply chain security is largely a 
voluntary notion that his little chance of truly enhancing security.
    Through discussions with supply chain participants, and as 
demonstrated by real-world security-related demonstration projects, it 
has been determined that a framework for minimum mandatory supply chain 
security standards that is recognized and accepted worldwide is 
necessary in order to begin the complex process of ensuring that goods 
moving through the supply chain are not compromised. This framework 
would cover five major areas:
    1. Verification that a container is free of false compartments;
    2. Verification that reasonable care and due diligence have been 
        used in packing, securing, and manifesting goods;
    3. Ensuring that at any point along the route that the cargo has 
        not been tampered with;
    4. Ensuring that the integrity of the information and information 
        systems associated with the movement of cargo has not been 
        compromised;
    5. Ensuring that accurate data on the shipment is provided to 
        Customs well in advance of the ship's arrival in the United 
        States.
    To date, the Federal Government's response to supply chain security 
has been fragmented among several agencies (e.g., U.S. Coast Guard, 
Customs and Border Protection, Domestic Nuclear Detection Office, 
Transportation Security Administration, Federal Emergency Management 
Administration, U.S. Department of Transportation, etc.), and many of 
the programs currently in place feature voluntary participation, such 
as the Customs-Trade Partnership Against Terrorism (C-TPAT), or are 
internal research efforts looking at applying technology solutions to 
mitigate the risks.
    Although the benefits of participation in these voluntary programs 
have included reduced or priority inspections (the ``Green Lane'' 
concept), these benefits have not been consistently applied throughout 
the trade community. Therefore, there is reduced incentive for supply 
chain owners to make investments in complying with voluntary programs 
that may provide little return on investment.
    Minimum security standards would address several issues that have 
already been identified, such as: lack of a standard Risk Assessment 
Methodology; disparity among countries on how security devices that may 
be installed on ocean containers are treated by customs; the lack of a 
global, dedicated frequency band for security devices that use radio 
communication as part of their functionality; the lack of provisions 
for security in current international standards for container 
manufacture; the lack of a standardized, pre-shipment inspection 
checklist or other method to ensure that containers are in good repair, 
and are the proper dimensions; the lack of an international standard 
for minimum identification verification or background checks of 
employees who have access to cargo; agreement on the minimum data 
elements that should be included in cargo transactions; lack of 
standard operating procedures and processes for the encryption and 
exchange of data and information as cargo moves through the supply 
chain; and the lack of minimum standards for conducting and documenting 
the inland dray portion of the supply chain.
    Without internationally recognized minimum and enforceable supply 
chain security standards, there can be no firm foundation upon which to 
build the appropriate business processes, policies, procedures and 
technologies that are economically and commercial viable to improve 
supply chain security, including the development of acceptable 
performance criteria for enforceable third party certification and 
program auditing.

    Ms. Sanchez. The Chair reminds other members of the 
subcommittee that, under committee rules, opening statements 
may be submitted for the record.
    Now to the testimony. I welcome our first panel of 
witnesses.
    Our first witness, Mr. Todd Owen, is the executive director 
of the Cargo and Conveyance Security Office in the Office of 
Field Operations for the U.S. Customs and Border Protection.
    Our second witness, Rear Admiral James Watson, is the 
director of prevention policy for marine safety, security and 
stewardship, U.S. Coast Guard.
    Our third witness, Mr. Robert W. Kelly, is senior advisor 
at The Reform Institute.
    Our last witness, Mr. Paul Zimmermann, is the director of 
operations at the Port of New Orleans.
    Welcome, all. Without objection, we are going to put your 
full statements to be inserted into the record.
    I will now ask each witness to summarize his statement for 
5 minutes, beginning with Mr. Owen.

     STATEMENT OF TODD OWEN, EXECUTIVE DIRECTOR, CARGO AND 
 CONVEYANCE SECURITY OFFICE, OFFICE OF FIELD OPERATIONS, U.S. 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Owen. Good afternoon, Chairwoman Sanchez, Ranking 
Member Souder. It is an honor to have the opportunity to 
testify before you today.
    My testimony this afternoon will focus on U.S. Customs and 
Border Protection's role in ensuring the continuity of 
international trade in the event of an incident occurring in 
the maritime environment.
    I would be remiss if I did not begin by thanking the almost 
50,000 CBP employees for their hard work, dedication and 
professionalism they exhibit every day while protecting our 
Nation. As America's front-line border agency, U.S. Customs and 
Border Protection employees are highly trained professional 
personnel, resources, expertise and law enforcement authorities 
to meet our twin goals of improving security and facilitating 
the flow of legitimate travel and trade.
    CBP is responsible for preventing terrorists and terrorist 
weapons from entering the United States, apprehending 
individuals attempting to enter the United States illegally, 
stemming the flow of illegal drugs and other contraband, and 
protecting our agriculture and economic interests from harmful 
pests and disease.
    To this end, CBP has worked to refine a layered and risk-
based approach to enhance the security of goods and people 
entering the United States. This layered approach to security 
reduces our reliance on any single point or program, extends 
our zone of security outward, and facilitates resiliency and 
resumption of critical trade after an event of national 
significance.
    I am pleased to appear before the subcommittee today to 
highlight some of the activities related to the above global 
supply chain security, which we know we rely on so heavily, not 
only for security, but the ability to recover quickly after 
disruptive events.
    The communication of accurate and timely information 
between all stakeholders, whether Federal, State, local or 
private sector, is a necessary precondition to facilitate the 
quick recovery from unanticipated change or disruption. By 
working to ensure that resiliency-building conditions are 
deployed within the supply chain, CBP will thereby increase its 
capacity to receive, process and act upon commercial and 
security information quickly and efficiently, thus mitigating 
threats with the least possible disruption to legitimate trade.
    CBP is making every effort to work with our partners and 
stakeholders to ensure quick and coordinated recovery in the 
maritime transportation system. CBP and the U.S. Coast Guard 
have developed joint protocols for the expeditious recovery of 
trade. These protocols were recently signed by both the CBP 
Commissioner and the Commandant of the U.S. Coast Guard, and 
they also establish a critical communication link to industry 
groups representing trade and carrier interests.
    CBP has also developed a formal business-resumption 
communication and coordination plan with Canada's border 
services agency. These protocols provide for both CBP and CBSA 
during instances where precise, accurate and timely 
communication is essential. A similar communication 
coordination plan with the Government of Mexico is being 
finalized.
    CBP recognizes that a critical part of post-incident 
resumption is identifying methods for communicating reliable, 
timely and factual information to the trade community. To this 
end, CBP has created a Web-based mechanism, known as the 
Unified Business Resumption Messaging, for communicating with 
the trade community and has tested it during multiple exercises 
with industry representatives. The content of these messages is 
tailored to all modes of transportation; provides the trade 
community with timely information concerning port operations so 
that they may make informed business decisions in a post-
incident environment.
    CBP is also becoming more involved in local, regional and 
national incident response and recovery exercises. These 
exercises are helping CBP personnel establish relationships 
with responding agencies and to identify best practices for 
multi-agency incident response.
    While our efforts in a post-incident resumption of trade 
have focused on the processes for interagency cooperation and 
with sharing timely information with the trade community, we 
recognize that it is impossible to predict every significant 
event scenario or the details that will present themselves in 
an actual event. Our response to an actual event will depend on 
the facts we encounter, and each response will be tailored to 
those circumstances.
    The initiatives discussed today are only a portion of CBP's 
efforts to secure our homeland, and we will continue to provide 
our men and women on the front lines with the necessary tools 
to help them gain effective control of our Nation's border.
    Again, I would like to thank Chairwoman Sanchez and Ranking 
Member Souder for the opportunity to present this testimony 
today and for your continued support of DHS and CBP. Thank you.
    [The statement of Mr. Owen follows:]

                    Prepared Statement of Todd Owen
                              May 7, 2008

    Chairwoman Sanchez, Ranking Member Souder and distinguished 
subcommittee members, my name is Todd Owen and I am the Executive 
Director for Cargo and Conveyance Security, Office of Field Operations, 
U.S. Customs and Border Protection (CBP). As the Executive Director for 
the Cargo and Conveyance Security (CCS) Office since May 2006, I am 
directly responsible for all cargo security programs and policies for 
CBP. As you may imagine, a variety of programs and efforts fall under 
the purview of the Cargo and Conveyance Security office including, 
among others: the Container Security Initiative (CSI); the Secure 
Freight Initiative (SFI); radiation detection equipment and large scale 
imaging equipment, policies, and programs; the Customs-Trade 
Partnership Against Terrorism program (C-TPAT); the national Canine 
Enforcement Program; cargo enforcement efforts and policies, 
coordinated activities with the U.S. Coast Guard and the Transportation 
Security Administration; the Cargo Control Office, trade security 
policies and programs including in-bond, manifest, and carrier 
compliance programs; and the National Targeting Center for Cargo (NTC-
C), located in Northern Virginia.
    Prior to my current position with Cargo and Conveyance Security, I 
served as the Director of the C-TPAT program from January 2005 through 
May 2006. C-TPAT is an important industry-government partnership 
program under which companies commit to enhance security measures 
within their own infrastructure, thereby enabling CBP to leverage 
supply chain security throughout international locations beyond U.S. 
regulatory reach. We worked hard during this time to strengthen C-TPAT 
by more clearly defining the security measures required of members, by 
implementing strong management controls, and by increasing the number 
of program personnel, all of which boosted the level of foreign site 
assessments performed worldwide. These efforts resulted in the 
effective and robust program in place today--a program that is a key 
component of our risk-based and layered defense.
    It is an honor to have the opportunity to appear before you today. 
My testimony this morning focuses on CBP's role of ensuring the 
continuity of international trade in the event of an incident occurring 
in the maritime environment.
    As America's frontline border agency, CBP employs highly trained 
and professional personnel, resources, expertise and law enforcement 
authorities to meet our twin goals of improving security and 
facilitating the flow of legitimate trade and travel. CBP is 
responsible for preventing terrorists and terrorist weapons from 
entering the United States, apprehending individuals attempting to 
enter the United States illegally, stemming the flow of illegal drugs 
and other contraband, protecting our agricultural and economic 
interests from harmful pests and diseases, protecting American 
businesses from theft of their intellectual property, regulating and 
facilitating international trade, collecting import duties, and 
enforcing United States trade laws.
    To this end, DHS has worked continuously to refine a layered and 
risk-based approach to enhance the security of the goods and people 
entering the United States. This layered approach to security reduces 
our reliance on any single point or program that could be compromised, 
extends our zone of security outward, and facilitates resiliency and 
resumption of critical trade after an event of national significance. 
This multi-layered approach includes:
  <bullet> Advanced Information under the 24-Hour Rule and Trade Act of 
        2002;
  <bullet> Screening the information through the Automated Targeting 
        System;
  <bullet> Government-industry partnerships such as the Customs Trade 
        Partnership Against Terrorism (C-TPAT);
  <bullet> Partnerships with the international community such as the 
        Container Security Initiative (CSI) and the Secure Freight 
        Initiative (SFI);
  <bullet> Use of Non-Intrusive Inspection technology and mandatory 
        exams for all high risk shipments.
    On a typical day CBP processes more than 1.13 million passengers 
and pedestrians; 70,200 truck, rail, and sea containers; 251,000 
incoming international air passengers; 74,100 passengers and crew 
arriving by ship; 82,800 shipments of goods approved for entry; $88.3 
million in fees, duties and tariffs; and makes 70 arrests of criminals 
at ports of entry (POE) and 2,402 apprehensions between the POEs per 
day. CBP also seizes an average of 7,388 pounds of narcotics, $652,603 
worth of fraudulent commercial merchandise, 41 vehicles, 164 
agriculture pest, and 4,296 prohibited meat or plant materials each 
day.
    I am pleased to appear before the subcommittee today to highlight 
key accomplishments related to ensuring that the global supply chain 
upon which we rely so heavily is not only secure, but also has the 
ability to recover quickly after disruptive incident. The communication 
of accurate and timely information between all stakeholders--whether 
Federal, local, State, or private-sector--is a necessary precondition 
to facilitate quick recovery from unanticipated change or disruption. 
By working to ensure that resiliency-building conditions are developed 
within the supply chain, CBP will thereby increase its capacity to 
receive, process, and act upon commercial and security information 
quickly and efficiently, thus mitigating threats with the least 
possible disruption to legitimate trade.
    CBP is making every effort to work with our partners and 
stakeholders to ensure quick and coordinated recovery of the maritime 
transportation system. The events of Hurricane Katrina revealed the 
need to work more cohesively as an agency with a stronger emphasis on 
internal and external communication methods. Acting on recommendations 
made in the Katrina after-action reports, CBP established the Incident 
Management Division within our Office of Intelligence and Operations 
Coordination.
    In doing this, we have created the CBP Incident Management 
Coordination Directive. This policy will ensure all CBP offices are 
effective, coordinated, and responsive during and after an incident. 
This will also ensure we maintained focused on our primary missions of 
preventing terrorists and terrorist weapons; interdicting the flow of 
illegal aliens, narcotics, and other contraband; and facilitating 
legitimate trade and travel.
    On a national level we are getting more involved in Local, Regional 
and National Incident Response and Recovery exercises. These exercises 
are helping CBP personnel establish relationships with responding 
agencies and also identifying better practices for the bigger picture 
of Multi-Agency Incident Response.
    Homeland Security Presidential Directive 5 (HSPD 5) requires all 
Federal agencies to adopt the National Incident Management System 
(NIMS) and that State and local agencies adopt NIMS as a condition in 
receiving Federal assistance. The NIMS is a national approach to 
incident management. It is applicable to all incidents and hazards, 
regardless of the size and scope. NIMS provides a flexible framework 
for a standardized organizational structure to improve 
interoperability. More importantly, it improves coordination and 
cooperation between public and private entities.
    Within the NIMS structure is the Incident Command System (ICS), a 
standard, on-scene, all-hazard incident management concept. Within the 
ICS structure a unified command, which is used when multiple agencies 
are responsible for an incident that crosses political jurisdictions. 
This ensures the agency leaders are coordinating to ensure that 
resources are being used effectively. Each agency assumes their 
authority. However, during a significant event, the Secretary of 
Homeland Security may designate a local Federal official or pre-
designated regional officials to become the Principle Federal Official 
(PFO). The PFO is responsible for coordinating and accounting for all 
Federal resources, ensuring each agency brings to the response trained 
certified personnel that understand the ICS and NIMS processes, thereby 
enhancing the ability to work more effectively together.
    The National Response Framework (NRF), which recently replaced the 
National Response Plan, is a guide that details how the Nation conducts 
all-hazards response, from the smallest incident to the largest 
catastrophe. This document establishes a comprehensive, national, all-
hazards approach to domestic incident response. The NRF identifies the 
key response principles, as well as the roles and structures that 
organize national response.
    CBP is conducting comprehensive business resumption planning in the 
event of a significant disruption in the flow of trade to ensure 
actions are taken to maintain communication and coordination of CBP 
processes at our borders with our U.S. Government and foreign 
government stakeholders, as well as the trade community. In accordance 
with the Security & Prosperity Partnership, Initiative 9.2.7, a 
significant amount of planning has been done with Canada Border Service 
Agency (CBSA) to address significant disruptions at our shared land 
border. CBP and CBSA have developed the overarching planning protocols, 
as well as the more detailed Joint CBSA/CBP Business Resumption 
Communication and Coordination Plan. This plan is intended to provide 
guidance and points of contact for communications between CBP and CBSA 
from the field level up to headquarters and the CBP Commissioner and 
CBSA President. Both sets of these protocols have been tested at joint 
tabletop exercises, with participation from CBP, CBSA, State and local 
governments, and members of the trade community.
    In accordance with Section 202 of the SAFE Port Act of 2006, the 
National Strategy for Maritime Security (NSMS), NSPD-41/HSPD-13, the 
National Maritime Transportation Security Plan (NMTSP) and the Maritime 
Infrastructure Recovery Plan (MIRP), CBP has been working with U.S. 
Coast Guard and has signed CBP/USCG Joint Protocols for the Expeditious 
Recovery of Trade. The purpose of these protocols is to establish 
national-level processes and procedures by which the Coast Guard, CBP, 
and other Federal agencies will have a forum for joint 
intergovernmental and joint government/private sector dialogs to 
identify and act on important issues to facilitate rapid maritime 
transportation system (MTS) recovery and the resumption of commerce at 
our borders.
    A critical part of business resumption is identifying methods for 
communicating reliable, timely, and factual information to the trade 
community. CBP has created a web-based mechanism for communicating with 
the trade community and has tested it during multiple exercises with 
industry representatives (Unified Business Resumption Messaging). The 
content of the messages is tailored to all modes of transportation. 
This message capability is a direct result of exercises with the trade 
community to understand the information needed to make informed 
business decisions in a post-event environment.
    Our efforts in post-event resumption of trade have been focused on 
processes for interagency cooperation and sharing with non-Federal 
stakeholders, as well as establishing broad principles for a risk based 
approach to cargo security that will function in a pre- and post-event 
environment. We recognize, however, that it is impossible to predict 
every significant event scenario or the details that will present 
themselves in an actual event. Our response to an actual event will 
depend on the facts we encounter and each response will be tailored to 
reflect these circumstances.
    CBP's frontline officers and agents will continue to protect 
America from terrorist threats and accomplish our traditional 
enforcement missions in immigration, customs, and agriculture, while 
balancing the need to facilitate legitimate trade and travel. These 
initiatives discussed today are only a portion of CBP's efforts to 
secure our homeland, and we will continue to provide our men and women 
on the frontlines with the necessary tools to help them gain effective 
control of our Nation's borders. I would like to thank Chairwoman 
Sanchez, Ranking Member Souder, and the members of the committee, for 
the opportunity to present this testimony today, and for your continued 
support of DHS and CBP. We will be happy to respond to any questions 
that you may have at this time.

    Ms. Sanchez. Thank you.
    I now recognize Rear Admiral Watson to summarize his 
statement for 5 minutes.

 STATEMENT OF REAR ADMIRAL JAMES WATSON, DIRECTOR, PREVENTION 
POLICY FOR MARINE SAFETY, SECURITY AND STEWARDSHIP, U.S. COAST 
             GUARD, DEPARTMENT OF HOMELAND SECURITY

    Admiral Watson. Good afternoon, Madam Chairwoman, 
Representative Souder and distinguished members of the 
subcommittee. It is my pleasure to appear before you today to 
discuss the Coast Guard's role in supporting resiliency of our 
Nation's supply chain and our recent accomplishments with 
regard to recovery planning.
    Recovery of the marine transportation system and resumption 
of commerce following a major incident, natural or manmade, 
that significantly impacts the MTS is an important component in 
supporting overall resiliency of the Nation's supply chain.
    The Coast Guard has a broad, multifaceted jurisdictional 
authority and responsibility to ensure the safety and security 
of the Nation's marine transportation system. As such, the 
Coast Guard is uniquely positioned to lead marine 
transportation system recovery efforts and, to date, has made 
significant progress toward improving the Nation's preparedness 
posture in support of Department of Homeland Security strategic 
goals.
    The resumption of commerce requires the Coast Guard to 
coordinate with multiple Federal and State agencies to mitigate 
the impacts to the United States economy resulting from a 
significant marine transportation system disruption. Likewise, 
the private sector plays a critical role in marine 
transportation system recovery. Industry possesses both the 
best information on inbound and outbound cargoes and day-to-day 
capabilities within the transportation mode to identify 
transportation and cargo-processing alternatives. These 
partnerships require prescribed communication procedures and 
pre-identified responsibilities to achieve the objective of 
restoring functionality to the damaged marine transportation 
system infrastructure.
    The Maritime Infrastructure Recovery Plan established a 
comprehensive approach to recovery from a transportation 
security incident. It provides a framework that clearly defines 
the roles for Government agencies, including the Coast Guard. 
The Maritime Infrastructure Recovery Plan also recognizes that 
the private sector plays a key role in the successful operation 
and management of the marine transportation system. The vast 
majority of marine transportation infrastructure assets are 
privately owned and operated. The decision to repair, replace 
or rebuild private physical assets following a catastrophic 
event is a private-sector decision.
    The Coast Guard, in concert with other Government agencies, 
plays a vital role in facilitating the marine transportation 
system recovery and restoration of the trade. This is a 
accomplished through close interagency coordination, 
facilitation of Government to private-sector communications, 
and by fulfilling our captain-of-the-port responsibilities, 
including managing aids to navigation and ensuring key 
waterways and Federal channels remain viable for shipping 
traffic.
    Drawing on lessons learned from Hurricane Katrina, a 
maritime recovery and restoration task force report, 
recommendations from a 2006 maritime recovery symposium that 
was held and the SAFE Port Act, Coast Guard partnered with 
Customs and Border Protection to develop the joint protocols 
for expeditious recovery of trade. These protocols were signed 
by both the Commandant and the Commissioner of Customs and 
Border Protection in January.
    The protocols established a communications process at the 
national level and describe how the Coast Guard and CBP will 
communicate and coordinate with other Federal agencies and the 
maritime industry following an event causing a major disruption 
to the maritime transportation system.
    The protocols support HSPD-13 and the protection of the 
national economy and national defense, as well as support of 
the SAFE Port Act mandate to develop protocols for resumption 
of trade in the event of a transportation disruption. The Coast 
Guard also continues aggressively to reach out to members of 
industry and ensure they understand their commitment to 
improving the recovery process.
    These protocols establish a critical communication link to 
industry groups representing trade and carrier interest. 
Following an event causing national impact, the Coast Guard and 
CBP will coordinate closely with these stakeholder groups to 
communicate marine transportation system status and critical 
restrictions, and ascertain the industry's intentions with 
regard to potential cargo diversion. This communication 
protocol allows Coast Guard and CBP to temporarily relocate or 
augment existing resources to a particular port as necessary.
    The Coast Guard released the Coast Guard-wide guidance 
establishing marine transportation recovery units as a 
component of local incident command structure just recently. 
The guidance calls for Coast Guard field units to replicate the 
national coordination process at the port level. Local units 
have been receiving training on implementing and establishing 
local coordination and communication procedures.
    In further effort to enhance resiliency of the supply 
chain, the Coast Guard promoted resiliency projects as part of 
FEMA's Port Security Grant Program for fiscal year 2007 and 
2008. These grant funds enabled the port areas to designate and 
implement strategies to build local redundancy and strengthen 
interdependencies.
    Thank you for the opportunity to testify today. I would be 
happy to answer questions.
    [The statement of Admiral Watson follows:]

            Prepared Statement of Rear Admiral James Watson
                              May 7, 2008

    Good afternoon, Madam Chairwoman and distinguished members of the 
subcommittee. It is a pleasure to appear before you today to discuss 
the Coast Guard's role in supporting resiliency of our Nation's supply 
chain and our recent accomplishments with regard to recovery planning.
    Recovery of the Marine Transportation System (MTS) and the 
resumption of commerce following a major incident, natural or man-made 
that significantly impacts the MTS is an important component in 
supporting overall resiliency of the Nation's supply chain. The Coast 
Guard has broad, multi-faceted jurisdictional authority and 
responsibility to ensure the safety and security of the Nation's MTS. 
As such, the Coast Guard is uniquely positioned to coordinate MTS 
recovery efforts and to date has made significant progress towards 
improving this Nation's preparedness posture in support of Department 
of Homeland Security (DHS) strategic goals for recovery.
    The Marine Transportation System (MTS) consists of ports, waterways 
and inter-modal landside connections which accommodate the movement of 
freight, military goods and passengers. The MTS is a vital public-
private partnership that makes up an essential component of the 
Nation's transportation network. It links water and surface 
transportation (rail and highway) and enables America to globally 
connect. Stakeholders in the MTS include governmental agencies, 
waterfront facilities, commercial and recreational vessels, vehicles 
and system users, such as importers and exporters.
    The resumption of commerce requires the Coast Guard to coordinate 
with multiple Federal and State agencies in cooperative efforts to 
mitigate the impacts to the U.S. economy resulting from a significant 
MTS disruption. Likewise, the private sector plays a critical role in 
MTS recovery. Industry possesses both the best information on inbound 
and outbound cargoes and day-to-day capabilities within the 
transportation modes to identify transportation and cargo processing 
alternatives. These partnerships require prescribed communications 
procedures and pre-identified responsibilities to achieve the objective 
of restoring functionality to damaged MTS.

                               BACKGROUND

    The concept of Recovery of the MTS following a significant event in 
the maritime sector is not new and is grounded in previous doctrine 
such as the National Contingency Plan (NCP). The NCP served to inform 
recent security-focused recovery efforts required by the Maritime 
Transportation Security Act of 2002 (MTSA), and MTS recovery concepts 
were further reinforced during the responses to Hurricanes Katrina and 
Rita in 2005. MTSA requires the National Maritime Transportation 
Security Plan (NMTSP) address the restoration of commerce following a 
security incident in the maritime transportation sector. Recovery in 
this context was further identified as an area of emphasis in National 
Security Presidential Directive (NSPD-41), Homeland Security 
Presidential Directive (HSPD-13), and National Strategy for Maritime 
Security. One of the national level plans that resulted from these 
strategy documents is the Maritime Infrastructure Recovery Plan (MIRP).
    The MIRP established a comprehensive approach to recovery from a 
transportation security incident with a focus on marine transportation 
capabilities. It provides a framework with clearly defined roles for 
government agencies (including the Coast Guard) and the private sector 
to facilitate resumption of passenger and cargo flow to minimize 
negative impacts on the U.S. economy following a major event.
    However, the MIRP also recognizes that the private sector plays a 
key role in the successful operation and management of the MTS as the 
vast majority of maritime transportation infrastructure assets are 
privately owned and operated. The decision to repair, replace, or 
rebuild private physical assets following a catastrophic event is a 
private sector decision. As such, the Coast Guard, in concert with 
other governmental agencies, plays a vital role in facilitating MTS 
recovery and restoration of trade. This is accomplished through close 
inter-agency coordination, facilitation of government to private sector 
communications, and by fulfilling its Captain of the Port 
responsibilities including managing aids to navigation systems and 
ensuring key waterways and Federal channels remain viable for shipping 
traffic.
    Following Hurricane Katrina, the Coast Guard chartered a Maritime 
Recovery and Restoration Task Force (MR\2\TF) in order to develop a 
greater understanding of the MTS recovery and restoration process and 
to better inform future planning considerations. The Task Force issued 
a report that more clearly defined recovery expectations, set 
objectives and offered recommendations to improve the recovery and 
restoration posture. Recommendations included incorporating MTS 
Recovery concepts into response plans such as the Maritime 
Infrastructure Recovery Plan (MIRP), local Area Maritime Security Plans 
(AMSP), and Continuity of Operations Plans (COOP) to ensure 
interagency/industry focus on MTS recovery. The Task Force also 
recommended the development of essential elements of information and 
key measures for each level of the response organization to gauge 
recovery status, and highlight the need to link MTS recovery and 
restoration with critical infrastructure protection.
    In August 2006, the Coast Guard sponsored a National Maritime 
Recovery Symposium (NMRS) to initiate national-level discussions 
regarding the implications of port closures or restrictions, as well as 
actions required to facilitate the resumption of commerce following a 
national transportation security incident (TSI) in the maritime sector. 
The symposium was attended by more than 160 invited government, private 
maritime sector and inter-modal transportation executives to identify 
and compile strategic critical requirements for national maritime 
recovery planning. The symposium identified six major needs to enable 
recovery of he MTS and resumption of trade:
  <bullet> An integrated government/industry recovery management 
        organization;
  <bullet> An integrated government/industry national communications 
        system for recovery;
  <bullet> A national logistics support plan for cargo diversion;
  <bullet> An integrated government/industry business continuity 
        planning system;
  <bullet> Government awareness of cargo flows and inter-modal 
        connectivity; and
  <bullet> Federal funding mechanisms to support local, State and 
        national recovery preparedness.
    The Security and Accountability For Every Port (SAFE Port) Act of 
2006 established a requirement for DHS to develop a strategic plan to 
enhance the security of the international supply chain in which the 
Coast Guard played an integral role in the development of the section 
on Maritime Recovery. Section 202 of the SAFE Port Act further required 
the development of protocols for the expeditious resumption on trade, 
which formed the basis for the Joint MTS Recovery protocols recently 
developed by the Coast Guard and U.S. Customs and Border Protection 
(CBP).

                            ACCOMPLISHMENTS

    Drawing upon lessons learned from Hurricane Katrina, key findings 
of the MR\2\TF report, recommendations generated within NMRS, and SAFE 
Port Act mandates, the Coast Guard partnered with CBP to develop the 
Joint protocols for MTS Recovery and the Expeditious Resumption of 
Trade. These protocols were recently signed by both the Commandant of 
the Coast Guard and the Commissioner of Customs and Border Protection.
    The protocols establish a communications process at the national 
level and describe how the Coast Guard and Customs and Border 
Protection will communicate and coordinate with other Federal agencies 
and the maritime industry following an event causing a major disruption 
to the MTS to facilitate recovery and the resumption of trade. The 
protocols support NSPD-41/HSPD-13 and the protection of the national 
economy and national defense as well as support the SAFE Port Act of 
2006 mandate to develop protocols for the resumption of trade in the 
event of a transportation disruption. The Coast Guard also continues to 
aggressively reach out to members of industry to ensure that they 
understand our commitment to improving the recovery process.
    The protocols also establish a critical communications link to 
industry groups representing trade & carrier interests. Following an 
event causing national impact, the Coast Guard and Customs and Border 
Protection will coordinate closely with these stakeholder groups to 
communicate MTS status and critical restrictions as well as ascertain 
industry's intentions with regard to potential cargo diversions. This 
communication protocol allows Coast Guard and Customs and Border 
Protection to temporarily reallocate or augment existing resources to a 
particular port as necessary.
    By following the MTS Recovery Protocols, the Coast Guard, Customs 
and Border Protection, and other Federal agencies, informed with 
pertinent and timely information from affected stakeholders, will 
communicate more effectively, resulting in a more expeditious MTS 
recovery that mitigates the detrimental effects of a disruption in 
trade.
    Incident command actions associated with response or recovery to 
domestic incidents which impact the ability of cargo and vessels to 
move through the supply chain will be carried out in accordance with 
National Incident Management System (NIMS) principles. NIMS was 
mandated in HSPD-5 to provide for interoperability and compatibility 
among Federal, State, and local capabilities, and includes a core set 
of concepts such as the incident command system, unified command, 
incident information reporting, etc. The NMTSP and the MIRP describe 
how recovery management is carried out at the various levels, and 
reflects the organizational constructs detailed in the National 
Response Framework, as well as the use of the Incident Command System 
(ICS) and unified command procedures.
    The Coast Guard recently released Coast Guard-wide guidance 
establishing Marine Transportation Recovery Units (MTSRU) as a 
component of the Incident Command structure. The guidance calls for 
Coast Guard field units to replicate the national coordination process 
at the port level. Local units have received training on implementation 
and establishing local coordination and communication procedures.
    In an effort to boost preparation in the ports and ease the 
financial burden of stakeholders, the Coast Guard promoted resiliency 
projects as a part of FEMA's Port Security Grant Program for fiscal 
year 2007. The funds enabled the ports to design and implement 
strategies to build redundancy and strengthen interdependencies.
    The Coast Guard recently issued updated guidance for a nationwide 
5-year update to AMSP. This guidance includes substantial new material 
to guide all-hazard-compatible port-level planning to facilitate MTS 
recovery and for preparation of Salvage Response Plans to guide 
incident management planning for removal of obstructions to navigation 
to support expeditious resumption of commerce pursuant to the SAFE Port 
Act. These materials were specifically designed to align with the DHS 
Strategy to Enhance International Supply Chain Security and the Customs 
and Border Protection--CG protocols for the resumption of commerce.
    The AMSP provides guidance for the Captain of the Port (COTP) 
pertaining to MTS recovery and the reopening of ports. Inclusion of 
this checklist in the AMSP fulfills one of the requirements of the SAFE 
Port Act to incorporate recovery planning within each of our existing 
contingency plans. As such, each plan must include not only procedures 
to facilitate the recovery of the MTS after a Transportation Security 
Incident, but also a process for addressing measures for reopening 
ports, and affected waterways, or linkages to other port plans that 
address recovery. Generally, measures for reopening the port will take 
into consideration the use of resources to locate, mark and remedy any 
channel obstructions. Provisions must also be made for verifying the 
functionality of Aids to Navigation and navigational depths within the 
channels.

                               CONCLUSION

    The Coast Guard understands the economic impacts presented by 
disruptions to the MTS. While the Coast Guard is required to uphold 
regulatory requirements, all due consideration is given to ensuring the 
facilitation of commerce throughout our coastal ports and inland 
waterways. The COTP uses regulatory authority, such as restricting or 
redirecting the flow of vessel traffic, to implement safety and 
security measures as necessary to reduce risk to the port navigation 
system and other MTS infrastructure taking into consideration the 
effects of these measures on commerce. As time permits and the 
situation dictates, the COTP will consult with port partners and 
stakeholders using coordination structures such as the Area Maritime 
Security Conference and harbor safety committees.
    Thank you for the opportunity to testify before you today. I would 
be happy to answer any questions you may have.

    Ms. Sanchez. Thank you, Admiral.
    I now recognize Mr. Kelly to summarize his statement for 5 
minutes.

   STATEMENT OF ROBERT W. KELLY, SENIOR ADVISOR, THE REFORM 
                           INSTITUTE

    Mr. Kelly. Thank you, Chairwoman Sanchez and Ranking Member 
Souder, for inviting me to testify today.
    For the past year, The Reform Institute has been promoting 
the need for greater focus on building resiliency across every 
industry, institution and infrastructure component of the 
Nation. Resiliency is that notion that an entity can experience 
a catastrophic event and nevertheless bounce back and return to 
a state of near-normalcy as quickly as possible. Perhaps 
nowhere is the need for building resiliency more compelling 
than as it pertains to the global supply chain.
    Over the course of the past few decades, the way by which 
raw material suppliers, manufacturers, wholesalers, retailers 
and end-users both deliver and receive tangibles has undergone 
sweeping changes. Technology has created the capability for 
each of these players to both send and receive needed inventory 
just in time. This has yielded great savings and achieved 
remarkable efficiencies. However, it has created a global 
system that is extremely vulnerable to disruption, irrespective 
of whether the source of that disruption is natural or manmade.
    The reasons are pretty straightforward. The U.S. industry 
relies on the ability to obtain parts, components and finished 
goods from around the world on a continuous, uninterrupted 
basis. It matters very little what type of industry we are 
talking about; very few are able to continue to operate 
nominally following a major disruption. Only relatively small 
amounts of critical inventory are now stored in warehouses. The 
supply chain itself has become the warehouse.
    Now, this quest for greater efficiency has generated lower 
prices and more product choices for consumers, but has also 
yielded over-stretched, single-source supply chains that lack 
the redundancy robustness to withstand a disruptive event. In 
this pursuit of leaner supply chains, too little attention has 
been paid by many firms to ensure the continuity of their 
operations in the event of a disruption in the supply chain. 
The fact that many employers aren't prepared for such a 
contingency means that a catastrophe that shuts down the global 
supply chain even briefly could wreak economic havoc.
    The West Coast dock strike of 2002 that you referred to 
earlier, Madam Chairwoman, illustrates this point. The strike 
shut down the West Coast ports for a mere 10 days, yet the 
effect on the U.S. economy has been estimated upwards of $15 
billion. It took several months to recover from this 
catastrophe, and yet this strike was a planned, widely 
publicized, anticipated and peaceful event. One can only 
imagine the economic consequences of an unanticipated incident.
    The current focus of DHS is heavily weighted toward 
prevention and enforcement, with little emphasis on building 
resilience. As much as it pains me to admit it, I think that 
the time has come for all of us to concede the fact that 
certain catastrophic events are inevitable. We can no more 
guarantee our security from the acts of a determined terrorist 
organization than we can prevent a natural disaster. However, 
what we can influence is how we react to these events and how 
we build a Nation whose institutions can absorb a catastrophic 
blow regardless of its origin and to bounce back rapidly.
    The Institute's symposium on Building a Resilient Nation 
that was held recently in New York illustrated what many 
private-sector leaders are already doing to build resiliency 
within their own companies and industry sectors. There is much 
that the public sector can learn from these leaders.
    DHS and its operating agencies, such as Coast Guard and 
Customs and Border Patrol, have accomplished much in the few 
years since its creation. However, there is much work that 
remains to be done.
    First, there is a vital role for DHS to play the 
cheerleader in reminding industry of the fact that building 
resiliency is very much in their own self-interest. If the 
first principle of being in business is to stay in business, 
building resilient organizations is what every business owes to 
its employees, its shareholders, its customers and its 
suppliers.
    Second, DHS needs to function as a key resource for U.S. 
industry and other institutions as they endeavor to become more 
resilient.
    Third, DHS should serve as a clearinghouse for best 
practices in crafting business-continuity plans for all types 
of industry.
    Fourth, DHS should play a leading role in organizing and 
conducting exercises that allow the corporate sector to test 
their continuity plans and revise them accordingly.
    DHS also needs to assume greater responsibility in 
hardening our supply chain. Greater emphasis needs to be placed 
on new technologies involving smart containers and the 
development of electronic cargo manifest that contains far 
richer and more reliable data than is currently used to target 
suspect containers that relies on unreliable carrier-supplied 
manifest data.
    More attention also needs to be paid to the deployment of 
container screening technology that can detect shielded 
material, which is the most reliable signature of an RDD or 
dirty bomb, the destructive impact of which on our supply chain 
would be catastrophic.
    Finally, Congress has an important role in helping change 
the dialogue in the area of homeland security from one that all 
too often focuses on preventing what may often be unpreventable 
while failing to address preparing for the inevitable. 
America's greatest resource is a well-informed, well-prepared 
citizenry that has been conditioned to the realities of the 
uncertain times that we live in. Congress can serve as the 
catalyst for refocusing our national priorities on building 
resiliency within every component of our critical 
infrastructure, every institution and our vital supply chain, 
and help achieve the worthy goal of building a resilient 
Nation.
    I would be happy to take any questions that you may have. 
Thank you.
    [The statement of Mr. Kelly follows:]

                 Prepared Statement of Robert W. Kelly
                              May 7, 2008

    Chairwoman Sanchez, Ranking Member Souder, thank you for the 
opportunity to appear before the subcommittee to discuss the vital 
topic of ``Assessing the Resiliency of the Nation's Supply Chain.'' I 
also applaud Chairman Thompson for addressing resilience within the 
Homeland Security Committee by making May ``Resilience Month.''
    The focus on resilience is a welcomed development at a critical 
time. Awareness of the importance of resilience to our security and 
economy must be encouraged throughout the Nation. Such awareness must 
be followed by action that is informed by and complements innovative 
efforts that are already underway in the private sector.
    The Reform Institute is a non-partisan, non-profit public policy 
organization dedicated to strengthening the foundations of our 
democracy and building a resilient society. The Institute is committed 
to promoting and facilitating a national dialog on resilience.
    Simply stated, resilience is the ability to rapidly respond to and 
recover from a catastrophic event. It is imperative that resilience 
become a national priority. It must be given status equal to, and 
viewed in the same light as risk prevention is in our homeland security 
policy. Confronting the resilience challenge will provide the 
Department of Homeland Security with the overarching vision that it has 
lacked since its inception. Such a concept can also unify the disparate 
agencies within the Department and energize its mission.
    The current myopic focus on prevention ignores reality and 
discourages essential efforts toward preparedness. The fact is that not 
every catastrophic event can be prevented. As painful as it is to 
admit, we can no more prevent a determined terrorist from achieving an 
isolated victory than we can prevent a hurricane or earthquake. What we 
can control, however, is how we prepare for catastrophic events and how 
we react when the sad eventuality occurs. Making resilience a priority 
will ensure that we are adequately prepared for the next Hurricane 
Katrina or terrorist attack and that such an incident does not severely 
disrupt vital economic and social activity in this country.
    While government authorities have paid scant attention to 
resilience to this point, key actors within the private sector have 
embraced the concept. As part of the McCormick Tribune Foundation's 
Conference Series, the Reform Institute hosted in March of this year a 
national symposium on Building a Resilient Nation: Enhancing Security, 
Ensuring a Strong Economy in New York City that brought together 
corporate leaders and industry experts to discuss the importance of 
resilience to our national and economic security. Representatives from 
major sectors of the economy provided inspiring examples of their 
efforts to improve the ability of their firms to continue operating in 
the face of a crisis. They also offered a frank assessment of the 
enormous challenges that remain.
    The public sector must learn from the progress made by these 
private sector leaders and foster the further development of such 
initiatives. Government agencies such as the DHS have a critical role 
to play as facilitators of private sector efforts toward resilience. 
The uninterrupted operation of U.S. businesses and the flow of goods 
and material through the global supply chain are vital to our national 
security and our viability as a global power. Supporting businesses in 
developing and exercising their continuity plans is one of the crucial 
roles that government can play.
    There is a vital role for DHS to play as the Nation's cheerleader 
reminding industry of the fact that building resilience is very much in 
their own self-interest. DHS needs to function as a key resource for 
U.S. industry and other institutions as they endeavor to become more 
resilient. The Department should serve as a clearinghouse for best 
practices in crafting business continuity plans by industry. There is 
also a major need for DHS to play a leading role in organizing and 
conducting exercises that allow the corporate sector to test their 
continuity plans and revise them accordingly. Developing continuity of 
operations plans and then allowing them to languish on the shelf would 
lead to a false sense of security perhaps more dangerous than having no 
plans at all. A regular schedule of joint public-private exercises will 
allow firms to enhance their response and continuity plans and will 
also bolster the working relationship between government and corporate 
officials who will have to cooperate closely in times of crisis in 
order to ensure a speedy and orderly return to regular operations.
    The government has a particular role to play in assisting small- 
and medium-sized firms in strengthening their resilience; entities that 
lack the resources to properly accomplish the task on their own. These 
businesses are the backbone of our economy and are the most vulnerable. 
Even a relatively short disruption in operations could cause these 
firms to shut down.
    Effective public-private partnerships will require better 
communication between agencies such as DHS and private firms. DHS must 
directly engage businesses and make them an integral part of the 
decisionmaking process, instead of simply handing down directives with 
little input. There must also be an improved flow of information 
between the public and private sectors. Employers can more adequately 
prepare for possible contingencies when they have better information 
regarding the potential threats and risks to their business. Reliable 
lines of communication must also be established in the case of 
emergency so that government authorities can effectively coordinate 
with businesses on response and continuity efforts.
    Considering that some 85 percent of our critical infrastructure is 
in the hands of the private sector, extensive public-private 
partnership is an absolute necessity in order to strengthen the 
Nation's resilience. The Nation's aging infrastructure represents a 
serious vulnerability that must be addressed. Our infrastructure and 
supply chain are potential terrorist targets because they are so 
essential to the Nation's economic vitality.
    The need for enhanced resilience and increased public-private 
partnership is no more evident than as it pertains to the supply chain. 
The highly efficient and deeply integrated global supply chain is the 
heart and soul of our economy. However, our acute reliance on the 
``just-in-time'' delivery of goods made possible by supply chain 
innovations leaves our economy severely vulnerable to a disruption 
caused by either a natural or man-made disaster.
    Innovations in shipping and the opening of new markets due to 
globalization have resulted in goods moving from one end of the globe 
to another in a relative blink of an eye. The remarkable breadth and 
efficiency of the global supply chain has transformed commerce. 
Retailers and distributors have largely forgone the storing of 
merchandise in warehouses and instead rely on the continuous ``just-in-
time'' delivery of goods. The quest for greater efficiency has 
generated lower prices and more product choices for consumers, but also 
has yielded over-stretched, single-source supply chains that lack the 
redundancy and robustness to withstand adequately a disruptive event, 
such as a natural disaster, industrial accident, or terrorist attack.
    In the pursuit of leaner supply chains, too little attention has 
been paid by firms to ensure the continuity of their operations in the 
event of a disruption in their supply chain. The fact that many 
employers are unprepared for such a contingency means that a 
catastrophe that shuts down the global supply chain even briefly could 
bring economic activity to a virtual halt and cause damage to our 
economy in the near and long terms.
    The West Coast dock strike of 2002 illustrates this point. This 
strike shut down West Coast ports for 10 days. The cost of the strike 
to the U.S. economy was estimated at $15 billion. It took many firms 
several months to recover from the disruption to their supply chains 
caused by the strike. The strike was a planned, anticipated and 
peaceful event. One can only imagine the economic consequences of an 
unexpected incident that causes all U.S. ports to shut down for a 
period of time.
    Developing comprehensive continuity strategies must become an 
imperative for all ventures that rely on the global supply chain. 
Recommendations for bolstering business resilience in regard to the 
global supply chain were provided in the recent Reform Institute white 
paper, Chain of Perils: Hardening the Global Supply Chain and 
Strengthening America's Resilience.
    DHS can and must assume significant responsibility in hardening the 
global supply chain in order to deter terrorists from targeting it in 
order to derail our economy. Supporting and promoting the 
implementation of innovative technologies such as ``smart'' containers 
and advanced container screening should be a priority for DHS. A 
significant deficiency is the fact that a National Intelligence 
Estimate focusing on supply chain vulnerabilities has yet to be done. 
This needs to be fixed right now.
    The current patchwork of government initiatives falls well short of 
securing the supply chain. Under the Container Security Initiative 
(CSI), less than 1 percent of cargo containers are inspected prior to 
arriving at U.S. ports. CSI depends on cargo manifest lists provided by 
the carriers to target containers for inspection. However, manifests 
often provide little data on the origin and nature of the cargo. What 
data is provided can be unreliable and unverifiable.
    Determined terrorists could exploit gaps in the security patchwork 
by placing a dirty bomb inside a cargo container prior to its loading 
at a foreign port and detonating it at a U.S. port or within our 
intermodal transportation system. On top of the loss of life and damage 
caused by the bomb, such an action would call into question the 
security of the entire supply chain. The likely government response 
would be to shut down U.S. ports as authorities searched for more bombs 
in the pipeline.
    Closing American ports would set off a ripple effect throughout the 
global economy. The United States has no contingency plan for restoring 
the intermodal transportation system in the event of a nationwide 
closure of seaports for a number of days. Approximately 95 percent of 
global commerce is carried at sea with a significant amount borne in 
cargo containers. At any given time, about 60 percent of the world's 
merchant fleet is at sea. Given this fact, it takes little imagination 
to consider the massive back-up of ships and ``boxes'' that even a 
minor shutdown would engender. Businesses that depend heavily on 
``just-in-time'' delivery of goods and supplies would quickly run out 
of merchandise and material. Firms that are ill-prepared for such 
circumstances could possibly face having to lay-off employees or even 
shut down operations. This ripple effect, combined with fears of more 
attacks, would likely roil the markets.
    The economic impact of such a scenario could be devastating and 
long-lasting, depending on how long the ports were closed and the 
resilience of American companies and our citizenry. The possibility of 
such a scenario occurring underscores the need for intensifying our 
efforts to harden the global supply chain and enhance the resilience of 
U.S. industry across all sectors.
    These are not easy tasks by any means. Building greater resilience 
will require significant commitment and investment on the part of 
individual firms. However, these firms should view such expenditures as 
necessary for ensuring the long-term viability of the enterprise. They 
must also recognize that developing resiliency in an uncertain world 
will provide them with an advantage over competitors who are not 
prepared. By assisting businesses in pooling resources and sharing best 
practices and other vital information, public authorities can play an 
important role in facilitating this transformation.
    Hardening the global supply chain will also necessitate significant 
public-private collaboration. Such cooperation will have to be on an 
international scale since shippers at foreign ports are a key part of 
the equation. Private firms and DHS must work closely together to 
establish an efficient yet effective process for screening cargo 
containers.
    Although there are no easy solutions, the path has been cleared 
somewhat by pioneering firms that have led the way in promoting and 
implementing resilience. DHS must embrace public-private collaboration 
to implement innovative new systems and programs already being 
initiated by the private sector and exercise effective leadership to 
shepherd these changes through.
    The Reform Institute is ready and willing to help encourage public-
private partnerships toward resilience. Thank you again for this 
opportunity. I look forward to any questions you may have.

    Ms. Sanchez. I thank you.
    I now recognize Mr. Zimmermann for his statement for 5 
minutes.

STATEMENT OF PAUL ZIMMERMANN, DIRECTOR OF OPERATIONS, BOARD OF 
             COMMISSIONERS, THE PORT OF NEW ORLEANS

    Mr. Zimmermann. Chairwoman Sanchez, Ranking Member Souder, 
thank you for the opportunity to speak this afternoon.
    The lower Mississippi River is one of the most significant 
waterways in the United States. Over 6,500 ships per year 
transit the five port authorities comprising the lower 
Mississippi River, carrying over 485 million tons of cargo, 
nearly 25 percent of our Nation's waterborne commerce.
    To have the Mississippi River closed for any duration of 
time would be problematic for our Nation's economy. To have it 
closed for an extended period of time would be catastrophic. We 
simply must ensure that it is protected and that it can recover 
quickly from any event, natural or manmade.
    In terms of protection, from 2002 through 2005, the 
Department of Homeland Security provided the Port of New 
Orleans with nearly $6 million in port security grants to be 
used for lighting, fencing, barriers, detection cameras, mobile 
command center, and a river patrol vessel. These grants did not 
require matching funds.
    In 2005, the Port of New Orleans joined its sister ports on 
the lower Mississippi River and created the Lower Mississippi 
Port-Wide Strategic Security Council. In recognition of its 
economic significance, the mission of this five-port council is 
to help ensure that the ports in the lower Mississippi River 
become the safest and most protected maritime complex in the 
United States.
    In 2006 and 2007, this council received grants of nearly 
$30 million. These funds were utilized for various vessel 
tracking, surveillance, communications and training projects. 
These grants, unlike prior-year grants, required a 25 percent 
matching contribution. This required match, along with the 
corresponding operational and maintenance costs, presents 
significant financial hardships and could result in projects 
not being undertaken. We strongly encourage that this matching 
requirement be eliminated from future port security grants and 
that operational and maintenance costs be included.
    The sheer volume of maritime traffic, combined with 
numerous targets of interest, make the lower Mississippi River 
particularly vulnerable to U.S.S. Cole types of attack. The 
United States Coast Guard does an excellent job of vessel 
inspection and aids to navigation management on the lower 
Mississippi River. I would like to recognize Captain Lincoln 
Stroh, U.S. Coast Guard Captain of the Port, Sector New 
Orleans, for his efforts. Captain Stroh strongly emphasizes the 
need for a collaborative approach to keeping our port safe and 
takes a strong leadership role in that regard.
    I will comment, however, that the Coast Guard is severely 
hamstrung in the Port of New Orleans area, as they simply do 
not have enough assets on the water to provide an adequate 
level of deterrence, interdiction, surveillance and presence on 
the Mississippi River.
    From a disaster recovery perspective, Hurricane Katrina 
provided the Port of New Orleans, and indeed all of our 
neighbors on the U.S. Gulf Coast, with the unique, though 
unfortunate, opportunity to learn the value of preparing ahead 
for a return to business after a devastating event. It is said 
that every cloud has a silver lining. While the Port of New 
Orleans recovered fairly quickly after Katrina, the events that 
took place contributing to its recovery were basically 
reactionary, with an emphasis on mere survival.
    For the purpose of this hearing, the who, how, when and 
where of activities after the storm were not as important as 
the resulting plan formulated to guide our recovery from future 
events. Our organization now has in place plans to address 
command and control, personnel, financial, operational, 
communications and risk management issues in the event of 
another disaster. The need for such a plan is indeed what every 
organization should come to realize is the silver lining coming 
from Katrina.
    In a large-scale recovery effort, it is essential that each 
and every organization involved be virtually self-sustaining 
from the onset of the incident. A realistic disaster recovery 
plan must be in place, exercised and funded.
    A port is comprised of numerous service providers, public 
and private--river pilots, tug boat operators, longshoremen, 
truck drivers, regulatory agencies, fuel providers, et cetera--
all playing a role in keeping a port operational. Each element 
should have its own organizational recovery plan in place.
    From an overall protection and recovery standpoint, a great 
deal has been done on our Nation's mightiest river. However, a 
great deal remains to be undertaken.
    In the war on terrorism and in terms of maintaining 
international trade resiliency, our concern must never fall 
victim to complacency. The Port of New Orleans has learned a 
great lesson from Hurricane Katrina. We learned the value of 
the Mississippi River to our Nation, we learned the value of 
human life, and we learned the value of human resolve. All must 
be protected.
    In that regard, we stand ready to assist this subcommittee 
in any way we can.
    [The statement of Mr. Zimmermann follows:]

                Prepared Statement of Paul J. Zimmermann
                              May 7, 2008

    The lower Mississippi River is one of the most significant 
waterways in the United States. Over 6,500 ships per year transit the 
five port authorities comprising the lower Mississippi River--the ports 
of Plaquemines, St. Bernard, New Orleans, South Louisiana and Baton 
Rouge--carrying over 485 million tons of cargo--nearly 25 percent of 
our Nation's waterborne commerce. To have the Mississippi River closed 
for any duration of time would be problematic for our Nation's economy. 
To have it closed for an extended period of time would be catastrophic. 
We simply must ensure that it is protected and that it can recover 
quickly from any event, natural or manmade.
    In terms of protection, from 2002 through 2005 the Department of 
Homeland Security provided the Port of New Orleans $5.7 million Port 
Security Grants. These funds were used for lighting, fencing, barriers, 
metal detectors, cameras, a mobile command center and a river patrol 
vessel. These grants did not require matching funds.
    In 2005, the Port of New Orleans joined its sister ports in forming 
the Lower Mississippi River Portwide Strategic Security Council. In 
recognition of its economic significance, the mission of this five-port 
Council is to help ensure that the ports on the lower Mississippi River 
become the safest and most protected maritime complex in the United 
States.
    In 2006 and 2007 the Council received grants totally nearly $30 
million. These funds are to be utilized for various vessel tracking, 
surveillance, communications and training projects. The 2006 and 2007 
Port Security Grants, unlike prior year's grants, require a 25 percent 
matching contribution. This required match, along with corresponding 
operational and maintenance costs, present significant financial 
hardships and could result in projects not being undertaken. We 
strongly encourage that this matching requirement be eliminated from 
future Port Security Grants and that operational and maintenance costs 
be included.
    The sheer volume of maritime traffic combined with numerous targets 
of interest makes the lower Mississippi River particularly vulnerable 
to a U.S.S. Cole-type of attack. The United States Coast Guard does an 
excellent job of vessel inspections and aids to navigation management 
on the Mississippi River and I would like to recognize Capt. Lincoln 
Stroh, U.S. Coast Guard Captain of the Port, Sector New Orleans for his 
efforts. Capt. Stroh strongly emphasizes the need for a collaborative 
approach to keeping our ports safe and takes a strong leadership role 
in that regard. I will comment, however, that the Coast Guard is 
severely hamstrung in the Port of New Orleans area as they do not have 
enough assets on the water to provide an appropriate level of 
deterrence, interdiction, surveillance and presence on the Mississippi 
River.
    From a disaster recovery perspective, Hurricane Katrina provided 
the Port of New Orleans, and indeed all of neighbors on the U.S. Gulf 
Coast, with a unique, though unfortunate, opportunity to learn the 
value of preparing ahead for the return to business after a devastating 
event.
    It is said that every cloud has a silver lining. While the Port of 
New Orleans recovered fairly quickly after Katrina, the events that 
took place contributing to its recovery were basically reactionary with 
an emphasis on mere survival. For the purposes of this hearing, the 
who, how, when and where of activities after the storm are not as 
important as the resulting plan formulated to guide our recovery from 
future events. Our organization now has plans in place to address 
command and control, personnel, financial, operational, communications 
and risk management issues in the event of a disaster. (Components of 
this plan are attached.) The need for such a plan is indeed what every 
organization should come to realize is the silver lining coming from 
Katrina.
    In a large-scale recovery effort it is essential that each and 
every organization involved be virtually self-sustaining from the onset 
of the incident. A realistic disaster recovery plan must be in place, 
exercised and funded. A port is comprised of numerous service 
providers--public and private. River pilots, tugboat operators, 
longshoreman, truck drivers, regulatory agencies, fuel providers, etc. 
all play a role in keeping a port operational. Each element should have 
its own organizational recovery plan in place. To the extent possible I 
would suggest that all Federal, State and municipal agencies develop 
its own local disaster recovery plan.
    From an overall protection and recovery standpoint, a great deal 
has been done on our Nation's mightiest river. However, a great deal 
remains to be undertaken. In the war on terrorism, and in terms of 
maintaining international trade resiliency, all concerned on must never 
fall victim to complacency.
     The Port of New Orleans learned great lessons from Hurricane 
Katrina. We learned the value of the Mississippi River to our Nation, 
we learned the value of human life and we learned the value of human 
resolve--all must be protected. In that regard we stand ready to assist 
this subcommittee in anyway we can.
           board of commissioners of the port of new orleans
Elements of Disaster Recovery Plan
  <bullet> Possible Events: Fire, earthquake, flood, terrorist event, 
        hurricane, power blackout, nuclear disaster, computer virus, 
        bridge collapse.
  <bullet> Employee Information: Where will they go in event of 
        evacuation? Contact names, numbers, email.
  <bullet> Facility Assessment: Procedures to insure facilities are 
        inspected and deemed safe for occupancy or use after event.
  <bullet> Communications: Cell phones, satellite phones, VHF radios, 
        interoperable UHF radios, internal and external capabilities, 
        maintain contact with service providers, law enforcement and 
        regulatory agencies.
  <bullet> Satellite Office: Pre-arranged hotel with housing and office 
        accommodations for pre-determined senior staff. Proceed 
        directly to hotel in case of an event.
  <bullet> Incident Command: Pre-determined staff in charge at event 
        site, administration office and satellite office.
  <bullet> Harbor Police Department: Provide safety and security to 
        port facilities and local community.
  <bullet> Financial Services: Provide out-of-area banking services for 
        employees, direct deposit, checking, accounts receivable/
        payable. Key financial data stored offsite and accessible from 
        remote location.
  <bullet> Daily Communications: Staff conference call at pre-
        determined time.
  <bullet> Website Updates: Pre-determine who does it and who provides 
        update information.
  <bullet> Departmental Functions: Each department knows their 
        respective role. Example: Maintenance--initial facility 
        assessment, repairs; Marketing--communicate with customers; 
        Media--pre-determined spokesperson.
  <bullet> Risk Management: Understand insurances and claims process 
        beforehand, communicate with insurers, FEMA.
  <bullet> Housing: MARAD.

    Ms. Sanchez. Thank you, Mr. Zimmermann.
    I thank all the witnesses for their testimony.
    I will remind each member that he or she will have 5 
minutes to question the panel. I now recognize myself for a few 
questions.
    In his testimony, Mr. Owen referenced the development of 
the National Incident Management System and the National 
Response Framework that outlined the procedures for managing 
and responding to all-hazard incidents. I believe that in order 
to successfully recover from incidents, there must be 
coordination between the private and the public sectors of the 
supply chain. I have been concerned because I have been hearing 
from people that non-Federal and private-sector stakeholders 
frequently only learn about incidents on CNN.
    So I would like to know--and this is for any and all of 
you--how do the National Incident Management System and the 
National Response Framework involve non-Federal and private-
sector stakeholders to ensure that they are fully informed and 
that the affected systems can bounce back quickly?
    Maybe we will start with Mr. Owen.
    Mr. Owen. Thank you, Chairwoman.
    What U.S. Customs and Border Protection has done, based on 
the experiences we had with some tabletop exercises with 
Canada, is that we also recognized that we needed a more real-
time accurate communication tool to get word out to the trade 
community as to what ports of entry are closed, what 
alternative ports of entry are open for service, extended 
service. What we felt was important was to get the information 
into the hands of the trade community so that they could self-
adjust. We also needed a feedback mechanism for them to tell us 
where the anticipation and the trade was going to go, so that 
we could then send our resources to meet that need.
    To that end, we did develop a unified business messaging 
system, which the trade community can sign up for, and it 
provides them real-time information as to what activities are 
suspended at particular points of entry. We had opportunity to 
use this on the land border on the Tecate with the fires last 
summer. We were able to quickly inform the trade community as 
to the status of the Port of Tecate, as well as what 
neighboring ports of entry were open. So that is one mechanism 
that we have.
    We also have another mechanism through the joint protocols 
with the Coast Guard. That deals with the reach-back we have to 
what is known as the carrier support group. We have a carrier 
support group made up of groups such as the World Shipping 
Council, the International Association of Independent Tank 
Owners, the Cruise Line International Association. The purpose 
of that association is for, again, for us to, in real time, 
provide them information onto the status of a port, what 
facilities may be impacted, and receive feedback from them as 
to where they will be redirecting their vessels or their cargo 
so that CBP personnel, Coast Guard personnel can make the 
proper adjustments.
    So those are two relatively two new communication tools 
that we have that are intended to provide more real-time 
information back to the trade community.
    Ms. Sanchez. Anybody else?
    Mr. Kelly. Madam Chairwoman, I just might want to add that 
I think where there might be an area of great emphasis for the 
Department would be in being more active in providing a role to 
provide support to any of the businesses that are reliant upon 
this global fragile supply chain and helping them build very 
important business-continuity plans.
    Based upon the symposium that we had in New York back in 
March, we heard from many of the leading members of industry as 
to how they are developing business-continuity plans. But my 
sense is that this is not widespread and that there are many 
parts of American industry that are reliant upon this fragile 
global supply chain, where they could look to the Department 
for the Department to become a clearinghouse, a center for 
providing information to these businesses as to how you write a 
business-continuity plan, what are the types of things you 
should be thinking about, why you should exercise these 
continuity plans, how you exercise the plans and so forth.
    I think that would go a long way in helping bridge the gap 
between the public and the private sector.
    Ms. Sanchez. Mr. Owen or Admiral Watson, do we do that now? 
Do we provide that type of help to manufacturers, let's say, 
that are outside of a--I mean, I am thinking back to the issue 
of maybe a car manufacturing plant somewhere, who has something 
on some ship coming in through Louisiana.
    Do we work with them? Or is that available? Or are they on 
their own to try to figure this out ahead of time?
    Admiral Watson. Yes, ma'am, maybe I could address that.
    We primarily, as Mr. Owen said, we have these protocols, 
and we work through their associations. Really every business 
sector has a national association. Our protocols are focused on 
communications with those associations in an actual event.
    I think what we need to work on are the exercises and the 
preplanning and assistance that I think that the DHS agencies 
should be doing before an event. The mechanism that we would 
have primarily to do that is through our various sectors.
    You know, I think Mr. Zimmermann mentioned Captain Stroh 
down in New Orleans. You have the example out on the West Coast 
that was in The Washington Post. We have exercises that are 
going on on a routine base. These companies are typically 
notified of these things, either through their participation on 
the local area maritime transportation security committees or 
through information that is disseminated to them through their 
association, their trade associations and so on. We are 
starting to get participation in our exercises.
    The council that Mr. Zimmermann mentioned I think is a 
pretty good example. We have a similar organization in Houston. 
We are planning exercises across different port areas to 
exercise this recovery scenario where what is happening in one 
port might affect another. And, of course, national-level 
organizations, industry will be affected if any port that they 
use is impacted by a disruption.
    So we will continue doing those exercises and expect that 
they will respond accordingly.
    Ms. Sanchez. When you do these exercises and you talk to 
the associations, the associations are responsible for trying 
to drum up business from the membership to come over and work 
through some of these?
    How successful have you been in getting participation from 
area manufacturers or large employers who would be highly 
affected by goods movement being stopped?
    Admiral Watson. Well, the protocols were just signed in 
January, and so we are just now starting our set of annual 
exercises.
    But some of these outreach efforts and some of the 
protocols were active at the local or regional level within the 
maritime before they became national. In some of those 
regional-level exercises, we have seen some of the big retail 
distribution companies, like Wal-Mart and so on, actually 
participate in some of the exercises.
    So, you know, I think we have anecdotal information right 
now, but I think it is part of our strategy and our plan to 
involve those companies.
    The carriers--those would be the shipping lines, the World 
Shipping Council, the American Waterways Operators and so on--
they have always been involved in all the types of exercises 
that we hold at the port level, whether for environmental 
scenarios or hurricane scenarios. So this is fairly routine for 
them.
    Ms. Sanchez. Mr. Zimmermann, as a local port authority type 
of a person--and this is always such an interesting thing, 
because of course we have the Federal Government, we have the 
State government--at least in the ports that I have in my 
arena, the LA/Long Beach one, we have the local port authority, 
and we have the shippers, and we have people who are using the 
shippers to move goods.
    Would you say that our Department of Homeland Security--
because we are really reviewing, what is the Department of 
Homeland Security doing--do they have those connections going 
up and down, and have they really gotten something into place 
to ensure that if something like Katrina would happen again or 
some sort of stoppage would happen that those ships out there 
would be able to get their goods to an alternate port or to 
some other terminal in the port in order to move those goods to 
where they are needed?
    As somebody who represents a local port authority, do you 
think the coordination is there from the Department of Homeland 
Security? Do you think they have done enough? Do you think they 
are just getting off the starting blocks to work on it? What 
would you suggest from the angle that you are looking at this?
    Mr. Zimmermann. Well, the correct answer is probably a 
combination of all of the above. As a parochial-thinking port 
authority, we don't want cargo to go to another port; we want 
to develop our port quickly and recover and keep the cargo 
there.
    I think it is important to note that I have been using the 
term ``collaborative'' more and more over the last several 
years since Katrina and since 9/11. There are certainly 
organizations--Joint Terrorism Task Force, area maritime 
security councils--all of which are designed to share 
communication. Originally, it started primarily with regulatory 
agencies; now including trade organizations and private-sector 
shipping folks.
    So, in terms of communication from DHS, to and from DHS for 
that matter, as well as all of the Federal, State, local 
service providers, I think communications has drastically 
improved.
    DHS, I think, has done a wonderful job. I am extremely 
concerned, as I mentioned in my comments, port security grants, 
as well-intentioned as they are, and they certainly do serve a 
purpose, they are indeed placing a financial burden on port 
authorities. A 25 percent matching requirement, as well as the 
underlying operational and maintenance expenses on assets do 
present a financial burden. Although American Association of 
Port Authorities has not come out with a comment on that, I 
think that will be coming shortly.
    So, in that regard, I think that is an issue from port 
authorities with DHS. But in terms of communications, I think, 
by and large, they have done a very good job.
    Ms. Sanchez. Let me just finish up, because I know that my 
colleague has various questions he wants to ask.
    I guess what I am asking is, as I look at--I am more 
familiar with the port in my backyard, Long Beach/Los Angeles. 
I know that one person in the Coast Guard basically controls 
whether he is going to shut down the port or not.
    So, if he does that to you as a port authority, I mean, you 
just posed a very interesting counter to that, that you want to 
try to get up and get it open and get the business through as 
fast as you can. So, considering you have, sort of, your own 
interest, he has an interest of what is safe, what can I open, 
do you think that if something happened at your port today and 
your presiding captain from the Coast Guard said, ``I have to 
shut down the port,'' are there plans in place?
    Do you feel confident that people who need the goods that 
are waiting on those ships that are coming in will know who to 
call? Will the phone be answered? Will they get some direction 
about, ``I am sorry, the port is down for the next 10 days''? 
You have, I don't know, flowers that are going to rot on that 
ship if you don't get them unloaded in the next 2 days, ``Use 
such-and-such alternate port, and you have been cleared to go 
up there''?
    I mean, that is what I imagine. If I am a business person, 
I am looking for a solution to, ``I have to get my flowers off 
the ship.''
    Mr. Zimmermann. I understand. We have learned from Katrina 
the importance of communicating with our customer base. In 
fact, in our business-disruption plan, we have assigned one of 
our divisions within the port authority, their primary role is 
to interface with customers.
    A good example is we were receiving calls literally 6 
months, if not longer, after Katrina, saying we understand that 
the city of New Orleans is still under water and nobody is 
living there and commerce has completely stopped--all of which, 
of course, was incorrect. But the point there is getting 
communication out to the business community is imperative.
    Another example of that is, and I was telling Mr. Kelly, 
that, shortly after Katrina, we received a call from the 
Chairman of the Federal Reserve Bank, Mr. Greenspan. I happened 
to pick up the phone and talk to him. His first question was, 
is the port up and running? We received calls weekly 
thereafter. That was the time period when grain was getting 
ready to move down the lower Mississippi River.
    So, certainly, I think, by and large, the entire Nation 
recognizes the importance of keeping our port system working. I 
think that we have learned from a commercial, perhaps a 
somewhat self-motivating commercial standpoint that it is 
absolutely imperative to keep our commercial customers informed 
of what is happening.
    So do we have a plan in place to do that? Yes. How 
extensively can we perform that? I am not quite sure I can 
answer that right now.
    Ms. Sanchez. Thank you. I will get back to that question 
probably in the next round, but I would like to give my ranking 
member--I am sorry I took so much time, but go ahead, please.
    Mr. Souder. Mr. Zimmermann, I believe it is in your 
testimony, you have elements of a disaster recovery plan?
    Mr. Zimmermann. Yes, sir.
    Mr. Souder. Does DHS collect these type of things? Do you 
have any kind of model format of what port authorities can do? 
Do you talk to the different port authorities to collect this? 
Who at DHS would coordinate information-sharing?
    Admiral Watson. In a port area, what we have is that Area 
Maritime Security Committee. The committee has an area maritime 
security plan, which is the area plan. It would include the 
participation of the port, the port operations people, as well 
as all of the State and local agencies and so on.
    Mr. Souder. I am sorry, that is not quite my question. At 
Charleston, I believe we have a project in there, because 
Defense is so much in, they have kind of a separate thing 
going, and then in another port authority they have this kind 
of plan.
    What Mr. Kelly recommended and what was partly discussed 
here is, should you be a clearinghouse where, as different 
ports evolve, they can get different ideas from each other? If 
so, where would that be? Do you have anything like that now?
    Where, if we came in as an oversight committee and said, 
``We would like to see the disaster plans for every major port 
in the United States, what are the best practices, which ones 
seem to have weaknesses, which ones are advantages and we would 
like to look at that,'' would there be a place?
    Admiral Watson. No, sir, we don't have a repository for all 
those disaster plans from all those different companies.
    Where we share best practices is in our committees and in--
we have a National Harbor Safety Committee meeting annually. I 
mean, we have lots of venues to share best practices, but we 
don't collect the plans or have a staff that is looking through 
all those to, you know, share best practices.
    Mr. Souder. It seems to me--I spent most of my career, and 
particularly the early part of the career, working narcotics 
heavily, which had interaction with many of you and your 
agencies. Contraband is contraband, people smugglers are people 
smugglers, and they go through ports and all that type of 
thing.
    In narcotics, over the years, what I watched is, in dealing 
with that, they have evolved further, and Homeland Security is 
just tracing behind much of things, like whether it is an EPIC 
center or how we work with local law enforcement on 
information-sharing. Many of the things that Homeland Security 
is trying to do are things that we have done in narcotics. What 
kind of equipment is purchased at the local level? We developed 
a clearinghouse for the different agencies where they could 
review and say, ``This is the kind of radio you can get.'' We 
tried to do best practices where we had clearinghouses. We 
formed in treatment and so on, that type of thing.
    It seems in Homeland Security we are substantially behind 
that. I will ask Mr. Zimmermann, when you drafted this, where 
did you get your ideas from?
    Mr. Zimmermann. Well, quite frankly, this was based on in-
house knowledge and a little bit of flying by the seat of our 
pants.
    In response to your question, I think it is a case of the 
American Association of Port Authorities is in its infancy 
right now of putting together a best-practices-type scenario 
regarding disaster recovery plans.
    I think the next step, looking at disaster recovery from a 
micro level, at a local level, is that, as I mentioned in my 
testimony, a port is comprised of numerous private-sector 
service organizations, and really a port is only as good as 
every one of those. This summer we will be having an open house 
at the Port of New Orleans to encourage all of the service 
providers to discuss their own individual disaster recovery 
plans. That will also include the local agencies.
    I feel fairly confident that most entities in the 
transportation chain have some sort of disaster recovery plan. 
But we have not, to my knowledge, actually shared them with one 
another on a micro level, on a local level. I think that is 
probably the next step.
    Mr. Souder. Yeah, because, I mean, I have never been in a 
place that didn't show the plans and didn't have a whole dog-
and-pony show with the plan.
    I mean, it is just like at our border crossings. For years, 
we had all kinds of things developing, and they just didn't 
talk to each other. If you crossed at one place, we didn't know 
you crossed over here.
    Part of the question is, how is this evolving when you 
have--I mean, we have the Internet. This isn't hard. I mean, 
you can basically take some computer college guy and get this 
stuff together and have a clearinghouse.
    This leads me to another, kind of, pet concern I have in 
watching the exercises. That, particularly when you get into 
emergency responders, particularly when you get into volunteer 
emergency responders or even blended in different services, 
people don't stay in the same position for their whole career. 
They move inside the departments. So we go through these 
exercises. Since terrorist attacks don't occur every week, in 
fact they don't occur every year thankfully, in fact maybe a 
decade, and then it is one place in the United States, you may 
never see one in your whole career. By the time you go through 
a 30-year career, you may have gone through one exercise but 
had 10 posts since then.
    Are we doing anything--I remember when my youngest son, who 
is now 20, was doing SimCity stuff. I talked to different 
troops going to Iraq who are still saying that, in training, 
some of the video games they are playing are more sophisticated 
than the training they are getting from our military. That some 
of this kind of stuff doesn't all require--you have the actual 
things to make sure your simulations are working.
    Are we looking at how, when a new person comes into a fire 
department, when a new person comes into the police, when you 
transfer somebody over, when somebody who is doing this in a 
port gets transferred over here, that there is a simulation 
they can work through, and particularly with younger people, a 
model that they are most comfortable with, and are we 
interacting?
    It is like we are, kind of, acting like everything has to 
be done verbally, that our big innovation is, rather than 
flying everybody to a city for a meeting, they are doing it 
through teleconferencing. But there has to be some real 
breakthrough potentials in training using this type of a 
format.
    I raise this in different formats because there just 
doesn't seem to be much, kind of, creative programming of how 
to do this in our different agencies.
    Anybody have any thoughts with this? Is anything being done 
in Homeland Security? Do you have anything similar in ports? 
Have you seen that in your associations?
    By the way, the military is starting to do more of it in 
their training for overseas. I saw training at Camp Atterbury 
in Indiana where they were starting to use a game that was 
almost as sophisticated as my 12-year-old son was doing, but I 
think they have upgraded steadily.
    Admiral Watson. Sir, I will try to answer your question.
    I don't know of anything as sophisticated as, you know, 
some of the SimCity or whatever, those kinds of gaming, that we 
have ever seen for something like a seaport. But we are 
starting to use online training. We are sharing that across 
agencies. We are putting things online so that they can be 
accessed by the public without waiting for a physical exercise.
    You know, I think that there is still some value in the 
local area--I guess Mr. Zimmermann would call this the micro 
area--for people to actually see each other face-to-face. I 
mean, we have found that when real incidents occur at that 
local port level, the last thing that you would want is for 
people to just be meeting each other.
    So, you know, we have really focused, I guess purposefully, 
on these uses of our time and energy to actually have people 
meet each other.
    Mr. Souder. I am really fundamentally calling into question 
that. That is a part of it, but it has to be slot X rather than 
person X.
    I have a degree in business and a master's degree in 
business and working in the private sector; this is a changing 
field. It is so infrequent, that the faces are going to change. 
If you don't have a model that works and you are depending on 
person to person, yes, that helps--an informal structure in any 
disaster is going to be important as a formal structure.
    But if you don't have a basis--I believe in Katrina that, 
when we first went in, it was just before Commandant Allen got 
down there and General Honore, I think, was in the group in 
Iraq from here that went in in the beginning. There was chaos. 
That people couldn't talk to each other, people were arguing, 
no, this is State, this is Federal. The Governor and the 
Federal Government got in an argument in front of us about who 
was in charge. That there is only a certain amount of face-to-
face. There has to be a structure that goes past the 
individuals. Katrina was a good example of that challenge.
    That the Coast Guard partly worked because you had a more 
traditional military structure, that it didn't depend on 
whether you had person-to-person. When the person here said, do 
something, the next person said, ``Okay,'' and he said, ``Do 
this,'' and they said, ``Okay.''
    And that how you do this can't--you know, the boat guys go, 
look, this is my neighborhood, I am going to go rescue my 
neighborhood, I didn't like the order I got. That is part of 
the challenge when you work with volunteers. But there has to 
be some kind of a structure.
    One other thing I just want to mention here is that--well, 
two things. When we think of the traditional disruption, I 
think it is just good to put it in the record, that I was 
stunned to know that the largest employer in my district are 
direct sellers: Avon; Discovery Toys, where my wife works; I 
have two staffers that do Mary Kay. Thirty-thousand-plus 
people, they were stunned at the shutdown in Long Beach/Los 
Angeles because they had no product. That was, ironically, the 
No. 1 group of people. We think of other sectors.
    Also in Katrina, just to show you the little--by about 
Tuesday, the head of Steel Dynamics called me and said, you 
have to get this Canadian hydrogen plant open. Two hydrogen 
plants are down in the Gulf. I said, well, what does that have 
to do with steel? He said, well, we use just a little bit of 
hydrogen, but we have put the three big auto companies on 
warning that the steel isn't going to come, and they are going 
to have to shut down within 4 days if you can't get the 
Canadian hydrogen plant open. They have put a notice out to all 
the parts people that they are going to shut down. It only was 
just a tiny percent of hydrogen.
    Then I called a friend in the Canadian parliament, which 
isn't the way we should really be handling disasters, and he 
said, ``Well, you shut it down because of the trade thing.'' So 
I called Rob Portman and said, ``Open it up.'' He said, ``Well, 
you always complain about dumping.'' I said, ``Forget dumping, 
open up''--you know, see if the Canadians will get it going, 
because we are just about to shut down a whole bunch in the 
retailing.
    This kind of stuff just can't be, oh, we had the meeting, 
we are working on it, and so on. If something happens like 
this, it has so many angles that we don't even understand that 
just ripple through that can lead to tens of thousands of jobs 
because one little chemical didn't come through.
    That is why I think we really have to have some different 
types of approaches. It needs to accelerate information-
sharing. We really need to get this stuff online with access 
with best practices, and not kind of everybody freelancing. We 
all live in fear about the incident in New York where the 
cross-jurisdictions, which supposedly we worked out and it 
wasn't radioactive material, but eight different agencies were 
struggling with it before we sent the boat back out to sea.
    The question here is that if there is a port attack, do we 
really know if it came in by boat? Are we going to argue that, 
well, no, it was a land attack; oh, well, there was a land 
attack and a boat attack, this must be Coast Guard, this must 
be CBP; no, this is Department of Transportation because I 
think they hit the rail; oh, maybe it is the air because there 
was somebody who came in by airplane who got there; oh, no, it 
is the local port authority, I think the shipping company is in 
charge of this.
    This is what we worry about. There needs to be even more an 
aggressive thing. If we need to do some consolidation at our 
end, we need to see what we need to do legislatively.
    Thanks.
    Ms. Sanchez. I agree. I think it goes back to the question 
I was asking Mr. Zimmermann; how confident are you that if 
something happens everybody knows--you know, that a company 
knows where it stands in line and how it is going to get its 
goods. Or will it? Because, you know, maybe flowers aren't as 
important as some munitions that is coming in on a ship that 
was further back in the pecking order.
    So I think we have the same concern. The concern is, who is 
in charge? When does that spring into action? Does everybody 
know who is in charge and what their role is, and where are 
they in the pecking order as to when we are going to get to 
them and what they are going to get to do with their goods?
    Ms. Sanchez. I mean, this is the question we are asking. I 
think, when I look at--and every port is different. That is 
what I have learned. Every port is different. But I am not so 
confident that if something would happen in my backyard that 
people really would know how to spring into action and who is 
in charge and what goods are going to get through and what is 
not going to get through.
    I guess added to that is: What role do the workers on the 
dock have? Do they know what their role is? Who tells them what 
to do if something is happening? Are we training them up for 
that?
    I mean, what about all of these dockhands who are the 
first--they are probably at the incident. You know, do they 
know what to do? Are we training them to know what to do? What 
role do they play?
    Can anybody here answer that?
    Mr. Zimmermann. Chairwoman Sanchez, I would like to respond 
to that, if you don't mind.
    One of the things that concerns me is that most 
organizations, if not all organizations, have some sort of 
recovery plan in place. We say that this organization is going 
to do this, this organization is going to do that, and this is 
how we are going to respond.
    What concerns me is looking behind that plan, meaning you 
say that your people are going to do this and do that, but 
suppose these people aren't there; suppose these people can't 
communicate; suppose these people don't have a home to live in. 
That is why I keep referring to the micro aspect of disaster 
recovery, and I will use New Orleans for an example.
    I think it is imperative--and, quite frankly, we have not 
done this yet, and we should and we will--we need to get to 
each component of the port--service providers and go across the 
board--and get a little bit into, how exactly are you going to 
do what you say you are going to do? Use the regulatory 
agencies, Coast Guard, for an example. Locally, in New Orleans, 
well, if your guys can't get to where they are supposed to be, 
how do you respond to that?
    So, in other words, I think we have to look behind what 
everybody says they are going to do and determine exactly how 
they are going to do it. That is an element that I think is--I 
won't say it is missing. I just would say that we have not 
gotten there yet.
    Ms. Sanchez. Gentlemen, do any of you have an answer to my 
question or some inkling of who is really taking care of this? 
I would assume it should be the Department of Homeland 
Security.
    Mr. Souder. Can I ask a variation of that?
    Ms. Sanchez. Yes.
    Mr. Souder. Does it depend on where the attack hits and who 
it is from, as to who is in charge?
    That is what I was kind of suggesting in mine, which is 
that, if it comes to the water, it is the Coast Guard; if it 
comes to the land, it is CBP; if it is in a certain part of the 
harbor, it becomes the Port Authority; if it is on somebody's 
company land--does who is in charge depend on who hit and where 
it hit?
    Admiral Watson. I don't think the vector makes as much 
difference as the impacted entity. If it is in the port or if 
it is in the waterway or if it involves a vessel, that is 
clearly in the responsibility area of the Coast Guard captain 
of the port.
    Mr. Souder. Okay. Since it is not likely to be that clear--
--
    Admiral Watson. But if you consider what is impacted, and 
then it could have been a plane out of the sky; it could have 
been an underwater whatever.
    Mr. Souder. Because most of the ports I think of are--here 
is the water, so the ports are certainly going to be impacted, 
most likely, but it may have spread up and may have blocked the 
rail or it may have taken out a bridge that is rail. It may, in 
fact, then maybe hit one of the cranes. You may have a 
terrorist running around on the ground who did it.
    So now who is in charge? It hit multiple vectors.
    Admiral Watson. Well, one of the things we haven't touched 
on is the National Response Framework, the framework that the 
Federal Government has created, and it uses the ICS system, the 
national incident management system. We have put a lot of 
effort into making sure that everyone who should be involved in 
these disasters gets the basic training at least.
    We are seeing that that has been happening. It necessarily 
involves the Federal agencies involved, which would include 
people that have responsibility beyond the port, as well as all 
of the port response agencies, the port facility owners and 
operators, the port security people and so on, the State 
police. That is the structure that really allows us to cross 
broader areas than just our local jurisdictions, for instance, 
the Coast Guard and the maritime.
    We actually use that for hurricanes, for example. We send 
someone in the Coast Guard typically up to a State emergency 
operations center where a State will be managing the effect of 
a hurricane. I am just speaking from experience here. In the 
State of Florida, where I was stationed, we have a lot of 
hurricanes. They are dealing with problems inland, offshore, in 
the rivers, you name it.
    So we are plugged in there just to deal with the maritime 
issues, but we are using that same framework to manage that in 
the case of a hurricane, underneath the overall leadership 
typically of the Governor, unless it gets really out of 
control. The opposite might be true if the situation is a 
purely maritime situation, where the Federal Government 
maintains the overall control but may need the support of the 
State and locals and, of course, the industry.
    We have integrated this recovery concept into our 
contingency plans, and that is what I mentioned in my 
statement, that we are going to have a series of exercises. We 
are going to learn those lessons from the exercises and, 
hopefully, from the best practices. As we bring different 
people from different industry segments or different companies, 
we can share those best practices as we see them through this 
exercise process.
    Mr. Kelly. Madam Chairwoman, if I may.
    Ms. Sanchez. Absolutely.
    Mr. Kelly. We have been talking a lot today about an event 
taking place in a port and also about port disaster plans.
    If an event takes place in a port, the ramifications of the 
event are going to go far beyond the port. If I am a 
manufacturer in, say, Fort Wayne, Indiana, or Orange County, 
California, and I am relying upon the fragile global supply 
chain from materials to come in from all parts of the globe in 
order for me to make my product, furthermore, I also have to 
rely upon it to get my product to market.
    I think there is a role for the Department in reminding 
folks like me, if I am a manufacturer, that it is in my vital 
interest that I develop a continuity-of-operations plan, a 
business continuity plan, for my business. By the way, this is 
what it looks like; here are half a dozen examples; and these 
are the 12 things you should be thinking about when you are 
developing a continuity-of-operations plan. Oh, by the way, you 
need to exercise your continuity-of-operations plan. The worst 
thing in the world is to have one, put it on the shelf, and be 
lulled into this false sense of security that, if something bad 
happens, you pull it off the shelf and respond. You need to be 
able to test it, exercise it and determine where its 
deficiencies are.
    I think there is a great role for the Department in acting 
as the national clearinghouse, a focal point for alerting 
industry, particularly the manufacturing sector, which has to 
look both upstream in the supply chain and downstream in the 
supply chain so they can build continuity-of-operations plans 
so they can survive an event that happens in a port or happens 
anywhere else in the supply chain.
    Ms. Sanchez. Thank you, Mr. Kelly.
    We have been joined by my colleague, Mr. Cuellar from 
Texas, and I think that he has some questions to ask.
    I will recognize you for 5 minutes.
    Mr. Cuellar. Madam Chair, thank you. I am sorry, I was with 
Small Business, talking about digital TV transition and the 
impact of February 17, 2009.
    My question has to do with what steps--and I don't know; I 
came in at the very end--but the impact that happens when you 
have the supply chain.
    That is, let's say you have--and I will talk about my 
area--you have something coming in from Monterrey, going 
through Laredo and then going off into the Midwest somewhere, 
and how that disruption will have an impact, because it does 
have an impact. Then also, not only talking about that, but on 
your rules and regulations and how that affects the supply 
chain that we have.
    Do you all do any sort of economic impact when you all 
implement your rules and regulations relating to this? Because 
I know that, when we think about Homeland Security, we usually 
say it is more of an enforcement--at least that is the 
impression that we get from our business folks who we 
represent--that you are more law enforcement-minded or mission.
    But do you all take any sort of consideration on the work 
that you do? What is your thought process when you go through 
that consideration, especially the small-business people?
    Anybody?
    Do you see what I am saying? You have to do law 
enforcement, and I don't have a problem with that; I will 
support you. But the question is, do you all look at the impact 
that it has?
    If there is a bad apple, I understand there is a bad apple, 
but if there is somebody who is trying to comply, how do you 
address especially the small-business person involved in this 
supply chain?
    Admiral Watson. Yes, I think what the question is, is do we 
take into consideration small business when we make regulations 
that are going to impact the supply-chain businesses. 
Certainly, we do through the Administrative Procedures Act and 
through the regulatory process.
    Now, once the regulation is in place and the enforcement is 
ongoing, you do wind up with people who are impacted, 
potentially due to, I would hope, minor disruptions of the law 
enforcement activities taking place. I mean, this could be a 
Customs inspector; it could be a Coast Guard inspector. That is 
part of what we have to do to be doing our job on the border or 
with regard to whatever laws are involved.
    Those kinds of things are--you know, we really can only 
minimize those interruptions to businesses so much. We always 
have an appeal process if the business feels during those 
activities that we have really not done a good job of either 
targeting or doing the law enforcement activity. We are very 
conscious of those appeals and to those oftentimes good 
recommendations that businesses have in ways we can improve the 
way we do law enforcement.
    Mr. Cuellar. Yesterday, we had another meeting in the Small 
Business Committee, and they invited all of the different 
associations, from the trucking association to, you know, name 
the industry. They were talking about Homeland Security and how 
it impacts. I mean, we had at least 15 to 20 associations--
business associations, national business. All of them had a 
complaint about Homeland. I was doing my best to defend 
Homeland, but, I mean, apparently, there is an issue with a lot 
of the national associations that feel that--we are not talking 
about somebody who is trying to smuggle in drugs or anything 
like that. We are talking about trying to comply with some of 
the rules and regulations and the impact that it has. Because, 
yesterday, what we heard was that they are saying there is no, 
really, consideration by Homeland Security, as an agency, on 
businesses.
    Maybe this is another time, that maybe we need to follow 
up, since they are calling us for votes. But I would like for 
you all to just think about the impact that it has on 
businesses, not the strict enforcement, but the regulations and 
the compliance. I guess it is more the compliance nature of it. 
I would love to follow up with you all on that.
    Another motion to adjourn. I am finished, Madam Chair.
    Ms. Sanchez. Gentlemen, we have a vote on the floor. I 
think we will go for another 10 minutes if we have questions, 
and then we will adjourn the committee, because who knows what 
kind of games are playing out on the floor. I think it is not 
the only vote we are going to have.
    Do you have any further questions, I would ask my ranking 
member? I will give him some time to ask.
    Mr. Souder. I am still frustrated with the chain-of-command 
question, if I can follow up a little bit more on that.
    Is there a place in your incident planning, which is one of 
the big questions in Katrina, where a scale is triggered--I 
mean, because what happened in Katrina is the Governor had to 
ask, and the Governor didn't want to lose control over local 
Guard, and we had all of these kind of questions--where a scale 
of incident triggers the Federal authority to override?
    Admiral Watson. I didn't come prepared to talk in detail 
about that scenario, sir. But I can pretty assuredly say that 
the system whereby the State, in that case, is the requesting 
authority for Federal agencies. I don't know that there is a 
trigger that automatically has the Federal Government come and 
take over a situation in a State.
    Mr. Souder. We have a whole level of frustration. We are 
talking about the buses being blocked by a local sheriff on a 
bridge. We have a problem right now with, quite frankly, some 
of the border control, where an eagle pass, a mayor isn't 
letting the Federal Government implement, because we don't have 
the same land control along the border in Texas that we have in 
Arizona and California.
    At what point does national interest trump local? The 
American people, when they see somebody hungry or something 
happening, don't really care about a jurisdictional fight. Now, 
I am a conservative Republican, and I believe that authorities 
should stay local as long as possible. But there has to be some 
trigger here where we say, look, this scale has exceeded a 
certain point.
    Which leads me to a second question, that in emergency 
response, we have been debating back and forth, have been 
moving that--do you have, in effect, like, a national emergency 
response team that moves, or do we have them regionally 
trained?
    Because when we start to look at FEMA--I was just talking 
to the head of our State Homeland Security Legislative 
Committee, and one of the things that we run into is, if we 
have a major incident in any city in Indiana, we don't have 
enough beds. There is no way you can train for a major 
incident. A major incident will just overwhelm your local 
system.
    So you are going to have to have--and plus, we were talking 
about--I was over on the Mississippi side--and it was a great 
theory, and I have certainly read all of this in New Orleans, 
it was a great theory, but guess what? They had their families 
to worry about. They don't have any tax revenue. Their county 
government place got knocked out. They don't have any 
computers.
    The question is: Like we are starting to do in emergency 
disaster response, in the economic response, in the supply 
line, are we going to have, at the very least, informational 
regional teams that, if a bridge goes out, we know where bridge 
engineers are and people who can come in from the outside and 
fix it? Do we have access to other ports within 500 miles that, 
if the longshoremen who aren't part of a company scatter, 
somebody can come in when we are restarting while they are 
trying to get their own families in shape? If there is 
something that occurs in the physical part of the port, that 
there people with certain expertise who are working with the 
different things that can come in, in a regional way, to handle 
a scale.
    Because most of the training that I see or most of the 
plans that I see are all local people talking to local people. 
It will overwhelm the local system if it is a major hit.
    Admiral Watson. These protocols for expeditious recovery of 
trade, that is their intention, is that we recognize that a 
local port is going to be affected, it is going to be knocked 
out, and that things are going to have to adjust to get the 
goods and services to the hinterlands now that that one port is 
knocked out. You need to have a means of communication; you 
need to coordinate the Federal and State agencies. You need to 
not tell business how they are going to do it, but you need to 
support their telling the Government agencies how they are 
going to do it.
    Mr. Souder. So, if somebody blows up a couple of dikes in 
the Mississippi River and there is also another catastrophe 
around with lots of deaths, do we know where we would go to 
bring engineers in and repair places within 1,000 to 2,000 
miles to get them down there to get it back open?
    Admiral Watson. We don't have a list like that of 
engineers, but we have communications with these associations 
and throughout the Federal Government, so that we would put out 
a call for those engineers.
    Mr. Souder. For example, a call went out on Katrina to the 
Indiana National Guard. It takes even an organized organization 
like that--they have to get the people in. Then they had to 
plan the gas route all the way down so they didn't wipe out the 
gas in each city as they came. It took them about 3\1/2\ days 
to move, because when you are working with organizations that 
have to pull it together, you are talking 3, 7, 10 days, even 
in an organized unit.
    The reason I raise the question about SWAT teams and so on 
is because we had this discussion, how much water are we going 
to hold back for the future to get it out faster. Sometimes you 
have to work in 72 hours or in just-in-time delivery. Having 
everybody put together a voluntary chain takes a week or 2 
weeks. We will be bankrupt.
    Some of this scale, the question is, can there be something 
that is a fast response? I don't know what it is called, but 
that is what we are trying to do in emergency management. The 
question is, can it be done in getting the infrastructure up 
and running?
    Now, some of these things just take a while. Sault Ste. 
Marie loses a lock, you are not going to replace it in 6 days. 
I mean, other things can be, if we were trained to do so.
    Admiral Watson. Right. Yeah, I think if you put your finger 
on the issue, is that a large part of what we are talking about 
here today is owned by the private sector. Do they have these 
recovery plans? I think the answer is, well, they do, but one 
entity does not know what the other entity's plan is and that--
--
    Mr. Souder. Does CBP do any of this in your----
    Mr. Owen. Within CBP, we have for our mobile inspection 
assets. We can quickly deploy additional officers through our 
air assets. We have mobile, nonintrusive inspection equipment, 
the imaging machines that you see. We have mobile radiation 
portal monitors. We can quickly adjust our resources to meet a 
change in the flow of trade.
    The broader question as to infrastructure changes and 
things like that, CBP is just not in that type of capacity. But 
if a port of entry were to be closed and the trade were to move 
to a neighboring port, if it was a smaller location where we 
did not have those types of assets, we are in a position to 
quickly, through our air branch and through the mobile 
inspection technology, quickly deploy to meet that need in the 
trade.
    Mr. Souder. Mr. Zimmermann, is there anybody who you would 
call? Who would you call?
    Mr. Zimmermann. Well, part of the answer is there does 
exist Area Maritime Security Councils, which are headed jointly 
by the Coast Guard and FBI. They have, as part of the council, 
numerous regulatory agencies--Federal, State, local--and some 
commercial trade organizations and so forth. They are designed 
to take a--and here is that word again--a collaborative 
approach to responding.
    So I think that is probably the organization that you are 
referring to. How effective would that be in dealing with the 
commercial aspect of an event? I am not quite sure. But from a 
pure regulatory response, that is the purpose of the Area 
Maritime Security Councils.
    Mr. Souder. Madam Chair, I know we share a lot of the--when 
the Cabinet members came in after Katrina, and Secretary 
Chertoff was trying to--it was like having to bang this out of 
HHS, bang this out of HUD, hope you could get a phone 
connection and get people on the phone at the same time--I am 
not denigrating. The first time through every disaster is hard. 
But we have now been through 9/11, we have been through 
Katrina, and we are seeing more of where the holes are. I just 
wanted to raise these points, because I think, personally, that 
it is a big hole.
    Ms. Sanchez. I would agree. I think that this, as we 
discussed, warrants that we go back and discuss it some more 
and figure out what kind of direction we need to give to the 
Department. Maybe we need to really see who in the Department 
has this going or is responsible for this, as well as some 
other reports and things that are missing.
    I have a lot of other questions, but we do have a vote on 
the floor, so I will submit those in writing to you and hope 
that you get back to us with answers fairly quickly. I mean 
that, because this Department, in particular, has a sense of 
not getting back to us in writing.
    I will also remind the rest of the members that they can 
submit questions in writing.
    You may receive some, and we would hope that you would 
answer them and get them back to us quickly.
    With that, the meeting is adjourned. Thank you so much to 
the witnesses once again.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


   Questions From Hon. Loretta Sanchez for Mr. Todd Owen, Executive 
    Director, Cargo and Conveyance Security Office, Office of Field 
Operations, U.S. Customs and Border Protection, Department of Homeland 
                                Security

                              May 7, 2008

    Question 1. What is the status of the Secure Freight Initiative 
report? This report was due April 13 and it is my understanding from 
staff that the Department has refused to provide information on when 
the report will be completed.
    Answer. Response was not provided at the time of publication.
    Question 2. It is my understanding that more often than not, the 
private sector is notified via CNN of a port or terminal closure. Why 
has CBP failed to develop an adequate communications system?
    Answer. Response was not provided at the time of publication.
    Question 3. It has been almost 7 years since 9/11 and according to 
your written statement CBP is now conducting comprehensive business 
resumption planning. Why has it taken 7 years to start this planning?
    Answer. Response was not provided at the time of publication.
    Question 4. According to your written testimony, Customs and Border 
Protection and the Coast Guard recently signed Joint Protocols for the 
Expeditious Recovery of Trade. Why has it taken so long for the 
Department to develop these protocols?
    Answer. Response was not provided at the time of publication.
    Question 5. In your written testimony, you state that ``our 
response to an actual event will depend on the facts we encounter and 
each response will be tailored to reflect these circumstances.'' Given 
the fact that you only just signed the Joint Protocols and are 
currently conducting comprehensive business resumption planning, what 
assurances can you give the committee that your response will be 
adequate and responsive to the needs of the business community?
    Answer. Response was not provided at the time of publication.
    Question 6. In your written testimony, you reference the 
Department's multi-layered approach to security. This approach did not 
include container security devices, which are mandated by the SAFE Port 
Act and the 9/11 Act. What assurances can you give the committee that 
the Department is going implement the container security device 
requirement?
    Answer. Response was not provided at the time of publication.
    Question 7. The Container Security Initiative (CSI) program depends 
on foreign governments to inspect containers before they are loaded on 
ships bound for the United States. How does CBP systematically ensure 
that these foreign countries have the systems and people capable of 
detecting and identifying WMD?
    Answer. Response was not provided at the time of publication.
    Question 8. One aspect of the CSI program is for our CBP personnel 
to observe foreign countries' processes for inspecting containers. How 
often do CBP personnel actually participate in or witness these 
inspections of high-risk cargo bound for the United States? Aren't 
there some CSI countries where our CBP personnel do not observe the 
inspections?
    Answer. Response was not provided at the time of publication.
    Question 9. One perceived benefit for foreign countries 
participating in CSI is that their containers will not be inspected 
again when they arrive in the United States. How many containers 
inspected at CSI ports are re-inspected upon arrival at domestic 
seaports?
    Answer. Response was not provided at the time of publication.
    Question 10. A container inspected at a CSI port is unlikely to be 
inspected again in the United States. What technical standards does CBP 
have for foreign inspection equipment used at CSI seaports to examine 
high-risk U.S.-bound containers and how do these standards compare to 
technical standards used for inspection equipment at domestic seaports?
    Answer. Response was not provided at the time of publication.
    Question 11. As noted, the CSI program depends on foreign 
governments to inspect containers before they are loaded on ships bound 
for the United States. Does CBP systematically review or examine the 
inspections practices or training of host government customs services 
that conduct inspections of high-risk U.S.-bound containers? If not, 
how do we know they are qualified?
    Answer. Response was not provided at the time of publication.

  Questions From Hon. Loretta Sanchez for Rear Admiral James Watson, 
      Director, Prevention Policy for Marine Safety, Security and 
     Stewardship, U.S. Coast Guard, Department of Homeland Security

    Question 1. In reading through some recent Port Security Exercises 
reports, I was surprised to learn there are still problems with 
communication and information sharing. What steps has the Coast Guard 
taken to improve communication with maritime stakeholders?
    Answer. Response was not provided at the time of publication.
    Question 2. It is my understanding that more often than not, the 
private sector is notified via CNN of a port or terminal closure. Why 
has the Coast Guard failed to develop an adequate communications 
system?
    Answer. Response was not provided at the time of publication.
    Question 3. It is my understanding that many maritime stakeholders 
are unfamiliar with the Homeport website. What steps have you taken to 
improve visibility of this program?
    Answer. Response was not provided at the time of publication.
    Question 4. While much planning has been done related to increasing 
security and preventing terrorist attacks, relatively little attention 
has been paid to resiliency issues. Resiliency would be needed not just 
for terrorist attacks, but for natural disasters or any other situation 
that could close down a port. To what extent does the Maritime 
Infrastructure Recovery Plan address this need? Isn't it written at too 
high a level to be useful to a given port in planning and implementing 
resiliency measures?
    Answer. Response was not provided at the time of publication.
    Question 5. The Coast Guard guidance on Area Maritime Security 
Plans was contained in a Navigation and Vessel Inspection Circular 
(NVIC) and contained a common template for developing such plans. This 
guidance required that plans--which were to be completed by July 2004--
contain priorities for recovery operations. However, recent GAO work on 
protecting energy tankers and implementation of the SAFE Port Act, 
noted that Area Maritime Security Plans lacked specific information on 
recovery and had not been updated to reflect the national-level 
guidance in the MIRP. What is the schedule for updating the Area 
Maritime Security Plans to incorporate more recovery issues?
    Answer. Response was not provided at the time of publication.
    Question 6. The Maritime Infrastructure Recovery Plan (MIRP) noted 
that the Coast Guard and Area Maritime Security Plans provide little 
guidance on port-level recovery issues. In addition, the SAFE Port Act 
specifically required that Area Maritime Security Plans include salvage 
equipment able to restore operational trade capacity. Have Area 
Maritime Security Plans now incorporated salvage information to help 
ports clear waterways as quickly as possible?
    Answer. Response was not provided at the time of publication.

  Questions From Hon. Loretta Sanchez for Mr. Robert W. Kelly, Senior 
                     Advisor, The Reform Institute

    Question 1. Why do you think that the Department of Homeland 
Security has failed to focus on the resiliency of the Nation's supply 
chain?
    Answer. Response was not provided at the time of publication.
    Question 2. What role do you think that the Department of Homeland 
Security should have with regards to resiliency?
    Answer. Response was not provided at the time of publication.
    Question 3. What lessons learned from the 2002 West Coast port 
strike and Hurricane Katrina should the Department of Homeland Security 
apply to improving the resiliency of the Nation's supply chain?
    Answer. Response was not provided at the time of publication.
    Question 4. How would you describe the current level of 
communication between the Department of Homeland Security and the 
private sector? What steps should be taken to improve this 
communication?
    Answer. Response was not provided at the time of publication.
    Question 5. What is your assessment of the Department of Homeland 
Security's cargo security initiatives?
    Answer. Response was not provided at the time of publication.
    Question 6. What is your assessment of the various maritime 
security plans that the Department of Homeland Security has developed 
in the past 5 years?
    Answer. Response was not provided at the time of publication.

 Questions From Hon. Loretta Sanchez for Mr. Paul Zimmermann, Director 
     of Operations, Board of Commissioners, The Port of New Orleans

    Question 1. In your written statement you state that events that 
took place contributing to the recovery of the Port of New Orleans were 
basically reactionary, with an emphasis on mere survival. Please 
elaborate.
    Answer. Response was not provided at the time of publication.
    Question 2. What measures could the Port of New Orleans have taken 
before Hurricane Katrina hit that would have improved the resiliency of 
the Port?
    Answer. Response was not provided at the time of publication.
    Question 3. What measures could the Coast Guard and Customs and 
Border Protection have taken before Hurricane Katrina hit that would 
have improved the resiliency of the Port?
    Answer. Response was not provided at the time of publication.
    Question 4. It has been 7 years since the attacks of 9/11 and 3 
years since Hurricane Katrina hit landfall. What more should be done to 
protect the Mississippi River, a river which carries nearly 25 percent 
of the Nation's waterborne commerce?
    Answer. Response was not provided at the time of publication.
    Question 5. What are some the lessons learned from Hurricane 
Katrina that can be used to improve the resilience of the Nation's 
supply chain?
    Answer. Response was not provided at the time of publication.
    Question 6. In addition to damage to the Port, there was also 
significant damage to the infrastructure leading to the Port. How did 
this damage impact the ability of the Port to come back on line?
    Answer. Response was not provided at the time of publication.
    Question 7a. The movement of cargo is dependent upon the men and 
women who work on the ports. In the aftermath of the storm, it was 
difficult to locate and communicate with these men and women. They had 
lost their houses and with the phone lines down, they had lost the 
ability to communicate to the outside world.
    Did all of your workers return?
    Answer. Response was not provided at the time of publication.
    Question 7b. How did you locate them?
    Answer. Response was not provided at the time of publication.
    Question 7c. Where were they housed?
    Answer. Response was not provided at the time of publication.
    Question 7d. How did you pay them?
    Answer. Response was not provided at the time of publication.
    Question 8a. In your written statement you state that the Coast 
Guard is severely hamstrung in the Port of New Orleans area as they do 
not have enough assets on the water to provide an appropriate level of 
deterrence, interdiction, surveillance and presence on the Mississippi 
River.
    How has the lack of resources impacted the Port of New Orleans' 
ability to improve the security of the port?
    Answer. Response was not provided at the time of publication.
    Question 8b. What additional assets does the Coast Guard need?
    Answer. Response was not provided at the time of publication.

                                 <all>

</pre></body></html>
